<html>
<title> - OPIOIDS IN THE HOMELAND: DHS COORDINATION WITH STATE AND LOCAL PARTNERS TO FIGHT THE EPIDEMIC</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
OPIOIDS IN THE HOMELAND: DHS COORDINATION WITH STATE AND LOCAL PARTNERS 
                         TO FIGHT THE EPIDEMIC

=======================================================================

                             FIELD HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2018

                               __________

                           Serial No. 115-68

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
        

                               __________                               
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-929 PDF                   WASHINGTON : 2018                                     
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
John Ratcliffe, Texas                J. Luis Correa, California
Clay Higgins, Louisiana              Kathleen M. Rice, New York
Thomas A. Garrett, Jr., Virginia     Nanette Diaz Barragan, California
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Diana Bergwin, Subcommittee Staff Director
      Erica D. Woods, Interim Subcommittee Minority Staff Director
      
      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4
The Honorable Glenn Thompson, a Representative in Congress From 
  the State of Pennsylvania:
  Oral Statement.................................................     5

                               Witnesses

Mr. Marlon V. Miller, Special Agent in Charge--Philadelphia, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Ms. Casey Owen Durst, Director of Field Operations--Baltimore 
  Field Office, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. David W. Sunday, District Attorney, York County, 
  Pennsylvania:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Raymond Singley, Director, Bureau of Records and 
  Identification, State Police Department, Commonwealth of 
  Pennsylvania:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27


OPIOIDS IN THE HOMELAND: DHS COORDINATION WITH STATE AND LOCAL PARTNERS 
                         TO FIGHT THE EPIDEMIC

                              ----------                              


                         Tuesday, June 19, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Harrisburg, PA.
    The subcommittee met, pursuant to notice, at 12:35 p.m., in 
room 205 of the Speaker Matthew J. Ryan Building, The 
Pennsylvania Capitol Complex, North 3rd Street, Harrisburg, 
Pennsylvania, Hon. Scott Perry [Chairman of the subcommittee] 
presiding.
    Members present: Representative Perry.
    Also present: Representative Glenn Thompson.
    Mr. Perry. The Committee on Homeland Security, Subcommittee 
on Oversight and Management Efficiency, will come to order. The 
subcommittee is meeting today to examine the role of the 
Department of Homeland Security's coordination with State and 
local law enforcement and the opioid crisis.
    Before we proceed any further, as Chair I need to make a 
few important announcements. I would like to thank the 
Pennsylvania State Capitol staff for hosting us today, and for 
allowing us to use their excellent facility, and from my 
standpoint particularly, it is just great to be here and to be 
back here.
    Because this is an official Congressional hearing as 
opposed to a town hall meeting, we must abide by certain rules 
of the Committee on Homeland Security and the U.S. House of 
Representatives. I kindly wish to remind our guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as use of signs or placards, are a violation 
of the Rules of the U.S. House of Representatives. It is 
important that we respect the decorum and the rules of this 
committee. I would also like to remind everyone that 
photography and cameras are limited to accredited press only. 
Without objection, Mr. Glenn ``G.T.'' Thompson will be allowed 
to sit in on the dais and participate in today's hearing, and 
it is ordered.
    The Chair now recognizes himself for an opening statement.
    Our Nation is in the midst of a deadly epidemic. Since 
1999, the Center for Disease Control estimates that overdose 
deaths in the United States from opioid substances, like 
prescription painkillers, heroin, and fentanyl have more than 
quadrupled. In 2016 alone, 67 percent of all drug-related 
overdoses Nation-wide involved prescription and illicit 
opioids, totaling an estimated 42,000 deaths. This is a crisis 
that has affected the entire American homeland. No State or 
community has been spared from devastating impacts of opioid 
abuse.
    In my home Commonwealth of Pennsylvania, where today we 
meet in this historic State Capitol Building, the epidemic has 
hit especially hard. In 2016, over 4,600 Pennsylvanians lost 
their lives due to drug overdoses. Moreover, in that same year, 
Pennsylvania had the fourth-highest rate of deaths due to 
opioid-related drug overdoses out of all 50 States, tallying 
37.9 deaths for every 100,000 people. While I am usually proud 
to tout statistics about how Pennsylvania is leading the 
Nation, this is one instance I wish I could say Pennsylvania is 
not at the forefront.
    Despite this disheartening reality, I am proud of my 
Commonwealth for taking a strong and unified stance in its 
response to the opioid crisis. Since January, Pennsylvania has 
been operating under a State-wide disaster declaration in 
response to the epidemic. The disaster declaration has allowed 
the Commonwealth to mobilize State resources, improve 
coordination between State agencies with the establishment of 
the Opioid Command Center, and increase access to treatment for 
those most in need. As a result of this unified effort, 3,660 
calls have been made to the Drug and Alcohol Program hotline, 
and 29,208 doses of naloxone have been distributed across the 
State resulting in 1,436 overdose reversals. Additionally, 
Pennsylvania's Prescription Drug Monitoring Program is 
accredited with helping to reduce the number of opioids 
prescribed. From 2016 to 2017, the number of opioids prescribed 
in Pennsylvania decreased by 14 percent, which is the second-
highest reduction rate across the country. Pennsylvania can 
certainly be proud of this statistic.
    In addition to State and local efforts, the Federal 
Government also plays a major role in fighting the opioid 
crisis. For example, the Department of Homeland Security's 
Immigration and Customs Enforcement Homeland Security 
Investigation coordinates with local law enforcement on 
investigations regarding narcotics smuggling and helps provide 
training to State and local officials. DHS's Customs and Border 
Protection works to interdict the flow of opioids from places 
like China and Mexico at ports of entry and international mail 
facilities. In addition, CBP officers provide support to the 
Pennsylvania Criminal Intelligence Center, one of 
Pennsylvania's three information-sharing fusion centers, which 
I had an opportunity to visit earlier today.
    The opioid epidemic poses a unique challenge for Federal, 
State, and local officials. Opioids are often more readily 
available than other types of drugs, with CDC estimating that 
in 2016, 40 percent of opioid-related overdose deaths involved 
prescriptions that can be obtained by--from a physician. 
Additionally, e-commerce in the modern world and the high value 
of small doses of synthetic opioids like fentanyl have allowed 
transnational criminal organizations and drug dealers to 
distribute opioids in nontraditional ways by exploiting the 
internet and postal service and cutting out the middlemen 
normally targeted by law enforcement during drug 
investigations.
    These challenges underscore the importance of understanding 
and reinforcing the relationship between Federal entities and 
the State and local officials in order to create a force 
multiplier to tackle this devastating and deadly epidemic. This 
is a complex crisis that calls for a multifaceted response from 
public officials at all levels.
    Last week, my colleagues in the U.S. House of 
Representatives and I passed a multitude of bills aimed at 
fighting the opioid epidemic that is crippling our communities. 
For example, one bill requires the United States Postal Service 
to transmit advanced electronic data to CBP on certain 
international packages in order to enhance the targeting of 
suspicious packages. Numerous other bills also offered 
solutions to this crisis by addressing treatment, recovery, and 
prevention efforts.
    I want to thank our panel for appearing before the 
subcommittee this morning on this very important issue. I look 
forward to learning more about the Department of Homeland 
Security's coordination with State and local officials in the 
Commonwealth in order to combat the opioid epidemic and protect 
the homeland.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                             June 19, 2018
    Our Nation is in the midst of a deadly epidemic. Since 1999, the 
Center for Disease Control (CDC) estimates that overdose deaths in the 
United States from opioid substances, like prescription painkillers, 
heroin, and fentanyl have more than quadrupled. In 2016 alone, 67 
percent of all drug-related overdose deaths Nation-wide involved 
prescription and illicit opioids, totaling an estimated 42,000 deaths. 
This is a crisis that has affected the entire American homeland. No 
State or community has been spared from devastating impacts of opioid 
abuse.
    In my home State of Pennsylvania, where today we meet in the 
historic State Capitol Building, the epidemic has hit especially hard. 
In 2016, over 4,600 Pennsylvanians lost their lives due to drug 
overdoses. Moreover, in that same year, Pennsylvania had the fourth-
highest rate of deaths due to opioid-related drug overdoses out of all 
50 States, tallying 37.9 deaths for every 100,000 people. While I am 
usually proud to tout statics about how Pennsylvania is leading the 
Nation, this is one instance I wish I could say Pennsylvania is not at 
the forefront.
    Despite this disheartening reality, I am proud of my State for 
taking a strong and unified stance in its response to the opioid 
crisis. Since January, Pennsylvania has been operating under a State-
wide disaster declaration in response to the epidemic. The disaster 
declaration has allowed the Commonwealth to mobilize State resources, 
improve coordination between State agencies with the establishment of 
the Opioid Command Center, and increase access to treatment for those 
most in need. As a result of this unified effort, 3,660 calls have been 
made to the Drug and Alcohol Program hotline, and 29,208 doses of 
naloxone have been distributed across the State resulting in 1,436 
overdose reversals. Additionally, Pennsylvania's Prescription Drug 
Monitoring Program is accredited with helping to reduce the number of 
opioids prescribed. From 2016 to 2017, the number of opioids prescribed 
in Pennsylvania decreased by 14 percent, which is the second-highest 
reduction rate across the country. Pennsylvania can certainly be proud 
of this statistic.
    In addition to State and local efforts, the Federal Government also 
plays a major role in fighting the opioid crisis. For example, the 
Department of Homeland Security's (DHS) Immigration and Customs 
Enforcement's Homeland Security Investigations (HSI) coordinates with 
local law enforcement on investigations regarding narcotics smuggling 
and helps provide training to State and local officials. DHS's Customs 
and Border Protection (CBP) works to interdict the flow of opioids from 
places like China and Mexico at ports of entry and international mail 
facilities. In addition, CBP officers provide support to the 
Pennsylvania Criminal Intelligence Center, one of Pennsylvania's three 
information-sharing fusion centers, which I had an opportunity to visit 
earlier today.
    The opioid epidemic poses a unique challenge for Federal, State, 
and local officials. Opioids are often more readily available than 
other types of drugs, with the CDC estimating that in 2016, 40 percent 
of opioid-related overdose deaths involved prescriptions that could be 
obtained from a physician. Additionally, e-commerce in the modern world 
and the high value of small doses of synthetic opioids like fentanyl 
have allowed transnational criminal organizations and drug dealers to 
distribute opioids in nontraditional ways by exploiting the internet 
and postal service and cutting out the middlemen normally targeted by 
law enforcement during drug investigations.
    These challenges underscore the importance of understanding and 
reinforcing the relationship between Federal entities and State and 
local officials in order to create a force multiplier to tackle this 
devastating and deadly epidemic. This is a complex crisis that calls 
for a multi-faceted response from public officials at all levels.
    Last week, my colleagues in the U.S. House of Representatives and I 
passed a multitude of bills aimed at fighting the opioid epidemic that 
is crippling our communities. For example, one bill requires the United 
States Postal Service (USPS) to transmit advance electronic data to CBP 
on certain international packages in order to enhance the targeting of 
suspicious packages. Numerous other bills also offered solutions to 
this crisis by addressing treatment, recovery, and prevention efforts.
    I want to thank our panel for appearing before the subcommittee 
this morning on this very important issue. I look forward to learning 
more about the Department of Homeland Security's coordination with 
State and local officials in the Commonwealth in order to combat the 
opioid epidemic and protect the homeland.

    Mr. Perry. Other Members are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Bennie G. Thompson 
follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 19, 2018
    Each day, more than 115 people die in America from opioid-related 
drug overdoses, and the number of deaths is on the rise. In 2016, more 
than 15,000 drug overdose deaths involved heroin and more than 19,000 
involved synthetic opioids such as fentanyl. The opioid epidemic is 
truly a National problem affecting people of all races, income levels, 
and ages.
    The impact of the epidemic is felt not only by families and 
communities who have lost loved ones, but it also negatively affects 
the country's health care system and economy.
    Unfortunately, President Trump has not implemented a National drug 
control strategy to stem the flow of opioids across America's borders. 
Rather, Trump has cobbled together bad policies aimed at reducing 
opioid prescriptions and increasing prison sentences. These policies 
ignore the fact that most fentanyl misuse is attributed to illicitly-
produced fentanyl being trafficked from China. Also, as demonstrated in 
the 1980's during the crack cocaine epidemic, tougher prison sentences 
don't result in less access to drugs.
    History tells us that ramping up law enforcement as a response to a 
health crisis disproportionately affects minority communities. Under 
the ``war on drugs'' approach--which Attorney General Jeff Sessions has 
alluded to bringing back--the Nation's prison population rapidly 
multiplied, filling America's prisons mostly with first-time offender, 
African American men facing harsh sentences. Those struggling with drug 
abuse, regardless of their demographics, ought to be given the proper 
treatment and rehabilitation services.
    Moreover, President Trump's zero-tolerance immigration policy and 
obsession with building a border wall has distracted him from the real 
need to increase resources at ports of entry and mail facilities to 
detect and seize opioids. The vast majority of all opioids entering the 
United States are seized at ports of entry across the United States. 
Prioritizing the border wall over ports of entry will impede our 
ability to end the opioid crisis.
    Today, the House voted on H.R. 5762, the ``Joint Task Force to 
Combat Opioid Trafficking Act,'' a Democratic measure introduced by my 
colleague Mr. Langevin, to help prevent the trafficking of opioids into 
the United States. The ``Joint Task Force to Combat Opioid Trafficking 
Act of 2018'' authorizes the Department of Homeland Security to 
establish a Joint Task Force to better coordinate the interdiction of 
fentanyl and other opioids. This important bill was reported by the 
Committee on Homeland Security on a bipartisan basis.
    Fusion centers can play a critical role in ending America's opioid 
epidemic. Originally created to gather and share intelligence following 
the attacks of 9/11, fusion centers have started collecting data on 
drug overdoses and seizures to identify emerging trends to reduce the 
severity and prevent overdoses all together. Therefore, I look forward 
to today's hearing highlighting what fusions centers composed of 
Federal, State, and local officials can accomplish when they work 
together, especially to save lives.

    Mr. Perry. We are honored to have witnesses with a broad 
range of experience on the front lines and the fight against 
opioids before us today. The witness' entire written statements 
will appear in the record. The Chair will introduce the 
witnesses first, and then recognize each of the witnesses for 
their testimony.
    But before I do that, I just want to recognize my 
colleague, G.T., if he has any opening comments.
    Mr. Glenn Thompson. Thank you. Chairman Perry, thank you 
for your leadership on this issue.
    This is the public health crisis of our lifetime. There is 
not a zip code in Pennsylvania or across this Nation that is 
not impacted by this. It is stealing lives, stealing potential, 
stealing work force from our economy. It is--the impact on 
families is just tragic, and it is so complex. That is the 
difficulty with this. There are so many different pathways that 
people can find themselves in these dire situations where they 
wind up as addicts and perhaps overdosing and losing their 
lives.
    So like any epidemic--and this is certainly what I consider 
this to be--the best way to deal with an epidemic is to 
surround it and look at all the root causes and the different 
contributing factors, and you are doing that with your 
leadership. So first of all, thank you for allowing me to sit 
in as a--on this--as a part of this committee for today.
    It is an all hands on deck. I know in my areas of 
responsibility, specifically two of my committees, we are also 
very involved in this fight against substance abuse. 
Specifically today, opioids and heroin--although I do always 
like to caution that the drug may be the flavor of the day 
based on economics and access, and we need to be looking at 
substance abuse behaviors if we truly are going to be 
successful in this.
    I know with the Agriculture Committee--and we are going to 
be hopefully voting into this week on a farm bill. The farm 
bill has resources in it for rural communities to be able to 
deal with this issue. The Education Workforce Committee that I 
serve as a senior member of, we have a number of bills that are 
part of the plethora of bills that were--came out of the 
Education Workforce Committee.
    So that is why I am so appreciative that you have brought 
this to a place that is very familiar with this fight. I am 
appreciative of what our colleagues here in Harrisburg, State 
House, and State Senate have done on this issue. We just know 
that there is a lot of work left to be done, and so I am 
appreciative of you bringing this opportunity, this hearing 
here to Harrisburg to the State Capitol, and thank you for the 
folks here in Harrisburg that made that happen.
    Mr. Perry. Well G.T., we are privileged to have you here. 
Thanks for taking the time and--you know, we were just at the 
Fusion Center looking at and getting briefings, but one of the 
things, looking at the map, you know, of course I was very 
interested in the area that I am privileged to represent, but I 
also couldn't help but take notice of your area and how 
things--how it is affecting that area, which you know, if you 
look at the area that I represent and the area that G.T. 
represents, it is very different. But one thing unfortunately 
it has in common is this is prolific throughout. So we are 
happy to have you here. Thanks for making the time.
    The Chair will now recognize the--our witnesses. Mr. Marlon 
Miller is a special agent in charge of ICE's Homeland Security 
Investigation, or HSI's, office in Philadelphia. Special Agent 
Miller joined the Customs Service in 1991 and has served in 
front line and leadership capacities at postings across the 
country. Mr. Miller, we are privileged to have you. Thank you.
    Ms. Casey Owen Durst is the director of field operations at 
CBP's Baltimore field office and is responsible for field 
operations in mid-Atlantic--in the mid-Atlantic, including 
Delaware, Maryland, Pennsylvania, Southern New Jersey, and 
Northern Virginia. The DFO--DFO Durst has served in a variety 
of positions at key ports of entry during her time with CBP, 
and she talked in the previous briefing about the breadth and 
the scope and the scale of what she has to deal with, and I 
hope she can impart some of that to the rest of the audience 
today so you can see what we are dealing with here.
    The Honorable David Sunday is the district attorney for 
York County, Pennsylvania. Mr. Sunday worked in both the 
district attorney's office and private practice prior to being 
sworn in as the district attorney in January 2018, and just as 
an aside, he--you know, with the Heroin and Opioid Drug Task 
Force in York County has kind-of really set the bar, not only 
for the area, but across Pennsylvania, and maybe even across 
the country, which is one of the reasons we asked him to be 
here today, and we are really proud to have him.
    Mr. Raymond Singley is the director of the Bureau of 
Records and Identifications for the Pennsylvania State Police 
Department. Mr. Singley has spent most of his career in 
counter-narcotics work, including serving as the director of 
Drug Law Enforcement Division. Mr. Singley was promoted to 
Major just last month, so we congratulate you, and we are 
privileged to have you.
    Thank you all for being here today. At this time, the Chair 
will recognize Special Agent Miller for your testimony, sir.

    STATEMENT OF MARLON V. MILLER, SPECIAL AGENT IN CHARGE--
 PHILADELPHIA, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Miller. Good afternoon, Chairman Perry, Representative 
Thompson. Thank you for this opportunity to appear before you 
today to discuss the opioid epidemic in Pennsylvania and around 
the United States, and the efforts of the U.S. Immigration and 
Customs Enforcement to target, investigate, disrupt, dismantle, 
and bring to justice the criminal elements responsible for the 
manufacturing, smuggling, and distribution of dangerous 
opioids.
    As the largest investigative agency within the U.S. 
Department of Homeland Security, Homeland Security 
Investigations investigates and enforces over 400 Federal 
criminal statutes. Each of our special agents use their broad 
authority to investigate all types of cross-border criminal 
activity.
    In Pennsylvania, HSI is working closely with the U.S. 
Customs and Border Protection, Drug Enforcement Administration, 
U.S. Postal Inspection Service, State and local law enforcement 
like Pennsylvania State Police, in a unified effort to target 
transnational criminal organizations that are supplying 
dangerous opioids to the United States.
    Today I would like to highlight our efforts to reduce the 
supply of illicit opioids such as heroin and fentanyl from 
entering in the United States for delivery in Pennsylvania, as 
well as operational challenges we encounter. Based on our 
collaborative efforts in the--with U.S. law enforcement, we 
have identified China and Mexico as primary sources fueling the 
illicit opioid threat. Once in the Western Hemisphere, often in 
Mexico, fentanyl, or its analogs, are prepared, mixed with 
other narcotics and fillers and pressed into pill form and then 
moved to illicit U.S. markets where the demand for prescription 
opioids and heroin remain at epidemic levels.
    In Pennsylvania, HSI's primary concern is simultaneously 
addressing two unique but related threats: The inundation of 
highly pure Chinese China-sourced fentanyl being delivered 
through U.S. mail in small quantities to the U.S.-based 
suppliers, re-shippers, and ultimately end-users, and No. 2, 
Mexican-sourced fentanyl in bulk quantities but with less 
purity being smuggled across the Southwest Border for cross-
country transportation and delivery into the Pennsylvania 
region.
    Regardless of the smuggling method or whether these opioids 
are ultimately being sold on the street corners or over the 
dark net, the reality is that once in Pennsylvania, fentanyl is 
most frequently marketed by drug dealers as heroin and a 
prescription opioid, and the end-user may not be aware of the 
presence of fentanyl.
    HSI special agents in Pennsylvania are battling this head-
on. In 2017, I created an HSI Cybercrimes Investigative Task 
Force in Philadelphia to tackle the unique challenges posed by 
Chinese-sourced and dark net-enabled synthetic opioids in 
Pennsylvania. This task force works closely with CBP, 
Pennsylvania State Police, DEA, U.S. Postal Inspectors, and the 
Pennsylvania National Guard's Drug-Counterdrug Program and is 
using every advanced technological and law enforcement tool 
available to address this growing problem.
    The task force's mission is to--it has adapted to now 
prioritizing more than ever investigations of the dark net 
vendors whose illicit opioid trafficking activities have 
resulted in identified overdose and overdose deaths in our 
region. In the western part of Pennsylvania, HSI has developed 
a collaborative relationship with the Allegheny County Medical 
Examiner's Office drug laboratory. HSI special agents encounter 
suspected fentanyl and fentanyl analogs through partial 
interdictions and enforcement actions. The substances are 
turned over to the lab for identification and analysis. The lab 
is able to provide the results of their testing back to the 
agents and prosecutors within 24 hours, which is key to 
enabling HSI agents and law enforcement partners the 
opportunity to rapidly progress opioid smuggling investigations 
for arrests and prosecutions.
    Tackling this complex threat involves a unified, 
comprehensive, and aggressive approach across law enforcement 
and collaboration with experts in the medical, science, and 
public health communities. HSI will continue to work with our 
State and local and Federal partners to improve the efficiency 
of information sharing and operational coordination to address 
the challenges and threats posed by illicit narcotics smuggling 
into the United States.
    Thank you for the opportunity to appear before you today, 
and I will be pleased to answer the questions you have. Thank 
you.
    [The prepared statement of Mr. Miller follows:]
                     Statement of Marlon V. Miller
                             June 19, 2018
    Chairman Perry, Ranking Member Correa, and distinguished Members: 
Thank you for the opportunity to appear before you today to discuss the 
opioid epidemic in the United States, particularly in Pennsylvania, and 
the efforts of U.S. Immigration and Customs Enforcement (ICE) to 
target, investigate, disrupt, and dismantle the criminal networks 
responsible for the manufacturing, smuggling, and distribution of 
dangerous opioids.
    As the largest investigative agency within the U.S. Department of 
Homeland Security (OHS), ICE Homeland Security Investigations (HSI) 
investigates and enforces more than 400 Federal criminal statutes to 
include the Immigration and Nationality Act under Title 8, U.S. customs 
laws under Title 19, general Federal crimes under Title 18, and the 
Controlled Substances Act under Title 21. HSI Special Agents use this 
authority to investigate all types of cross-border criminal activity 
and work in close coordination with U.S. Customs and Border Protection 
(CBP), the Drug Enforcement Administration (DEA), the U.S. Postal 
Inspection Service (USPIS) and our State, local, Tribal, and 
international partners in a unified effort, to target the Transnational 
Criminal Organizations (TCOs) that are supplying illicit substances, to 
include opioids, to the United States.
    Today, I would like to highlight our efforts to reduce the supply 
of illicit opioids, such as heroin and fentanyl, coming into the United 
States and the operational challenges we encounter.
                introduction to illicit opioid smuggling
    The United States is in the midst of an opioid epidemic that was 
created by licit prescription opioids and is exacerbated by the 
smuggling and trafficking of heroin and illicit fentanyl. Based on 
investigative efforts, U.S. law enforcement has identified China as the 
primary source, and Mexico as the primary transit country, of the U.S. 
illicit fentanyl threat.
    Illicit fentanyl, fentanyl analogues, and their immediate 
precursors are most often produced in China. From China, these 
substances are shipped through mail carriers or express consignment 
carriers (ECCs), such as OHL, FedEx, or UPS directly to the United 
States. or alternatively shipped TCOs in Mexico. Once in the Western 
Hemisphere, fentanyl or its analogues are prepared and mixed with other 
narcotics and fillers and/or pressed into pill form, and then sold to 
consumers in the U.S. market, where the use of prescription opioids and 
heroin remains at epidemic levels. The opioid epidemic in Pennsylvania 
is not dissimilar to the epidemic in the rest of United States. Recent 
statistics show that Pennsylvania has the fourth most opioid-involved 
overdose deaths in the country; and ranks 12th in opioid-involved 
deaths per 100,000. CDC's National Center for Health Statistics 
documents that Pennsylvania is among the States that have overdose 
death-rates statistically higher than the average U.S. rate per 
100,000. Some of these deaths are being caused by the abuse of illicit 
synthetic opioids sourced in China and transiting Mexico. In some 
cases, regional distributors smuggle industrial pill presses and 
components into the United States to operate fentanyl tableting 
operations domestically.
    Due to the convenience of the internet and the anonymity of the 
dark net and crypto-currencies, Pennsylvania is also seeing a 
substantial inflow of synthetic opioids and other dangerous drugs 
direct from China, and transiting Mexico. These substances are of 
particular concern because they are primarily synthetic and can have 
potency rates of 90 percent and higher. These extremely high potency 
rates cause a two-fold problem for law enforcement. Not only does this 
mean that officers need to understand how to protect themselves from 
exposure in the field, but drug trafficking organizations can create 
exponentially larger profits and significantly larger quantities of 
final product from a very small amount of raw substances. For example, 
10 grams of 90 percent pure synthetic Chinese-sourced fentanyl can be 
used to produce over 10,000 illicit oxycodone pills resulting in 
dramatically higher death rates than medical-grade oxycodone pills. 
Mexican TCOs have seized upon the profit potential of synthetic 
opioids, and seem to have invested in growing their share of this 
illicit market. For example, one kilogram of fentanyl can be purchased 
in China for $3,000-$5,000 and can generate upwards of $1.5 million in 
revenue on the illicit market. We are even seeing some instances in 
which precursors originating in China and smuggled into the United 
States have traveled through the United States, destined for Southwest 
Border locations. The Mexican TCOs have then smuggled the precursors 
out of the United States, synthesized them into fentanyl, and imported 
the finished product back into the United States for distribution and 
consumption. The final product can be advertised as heroin, and the 
end-user may not be aware of the presence of fentanyl.
illicit opioid shipments via international mail and express consignment 
                               facilities
    Seizures of illicit fentanyl and other opioids at international 
mail facilities and express consignment facilities have significantly 
increased over the last 2 years. Though fentanyl seizures made at land 
border ports of entry are higher in number and larger in volume, the 
fentanyl seizures from mail and ECC facilities are much higher in 
purity and are therefore much more deadly. Laboratory results of tested 
fentanyl has identified that the majority of illicit fentanyl seized in 
the international mail and ECC environments is shipped in 
concentrations of over 90 percent, whereas the majority of fentanyl in 
the land border port of entry environment is seized in concentrations 
of less than 10 percent. Purchasers can also access open-source and 
dark web marketplaces for illicit opioids like fentanyl, where they can 
be easily purchased.
    Just as TCOs attempt to hide illicit smuggling at the land border 
ports of entry by blending into the voluminous daily legitimate cross-
border traffic, TCOs are exploiting the great volumes of mail and 
parcels entering and crossing the United States as a means to conceal 
their criminal activity. The challenge for law enforcement is to find 
the resources to target, identify, interdict, and investigate every 
prospective 10-gram parcel of fentanyl, which is approximately the size 
of 2\1/2\ packets of sugar. In an effort to combat opioid trafficking 
through the mail and express consignment shipments, HSI is drawing on 
advance data, targeting supply chain networks, coordinating with 
domestic and international partners, and providing field training to 
highlight officer safety, trends, and collaboration benefits with 
partners such as CBP, the DEA, and the USPIS.
    In Philadelphia, for example, HSI is leading a Cyber Crimes 
Investigations Task Force with full participation from the key law 
enforcement agencies mentioned above. This task force, which I will 
address in more detail in a few moments, targets overseas and domestic 
dark net vendors perpetuating the Nation's opioid crisis through the 
sale of fentanyl analogs and other dangerous synthetic narcotics. A few 
of the task force's recent law enforcement actions speak to impact 
furthering this effort can have on addressing our local epidemic.
    For example, in May 2017, HSI's Cyber Crimes Investigations Task 
Force in Philadelphia arrested a narcotics trafficker near Philadelphia 
who acted as a large-scale domestic reshipper for a Chinese drug 
trafficking organization. This individual operated a clandestine 
distribution operation out of a storage facility where he received 
hundreds of international mail shipments containing small quantities of 
synthetic opioids direct from China. HSI's investigation revealed the 
trafficker then redistributed those drugs to users throughout the 
United States using U.S. domestic mail parcels. To date, HSI special 
agents have attributed at least 39 overdose deaths to this drug 
trafficking organization.
    On an unrelated case later in 2017, HSI's Task Force dismantled a 
dark net drug trafficking organization that operated what are believed 
to be two of the largest-ever clandestine fentanyl tableting 
laboratories in Pennsylvania. This dark net operation sourced fentanyl 
and other dangerous drugs directly from China using the international 
mail; purchased pharmaceutical grade manufacturing equipment including 
automated pill presses capable of producing 40,000 pills an hour; and 
rented commercial warehouses in parts of Eastern Pennsylvania to 
operate their clandestine laboratories. Although HSI has not attributed 
any overdose deaths to this operation to date, it is believed that HSI 
interdicted this operation before it products were fully distributed. 
In fact, HSI seized enough product and drugs from these two clandestine 
fentanyl tableting laboratories to ultimately produce millions of 
fentanyl-laced pills that could have inevitably resulted in mass 
overdose deaths. While this investigation remains on-going, the 
intelligence developed from the enforcement actions has provided law 
enforcement with insights into the means and methods of establishing 
such dark net vendor accounts.
    While HSI's efforts in Philadelphia have led to increased seizures 
and prosecutions of illicit opioid traffickers, more needs to be done. 
HSI is fully engaged with the DEA Special Operations Division (SOD) and 
the CBP National Targeting Center (NTC) to identify shipment routes and 
leverage advance data to target parcels that may contain illicit 
opioids and manufacturing materials and to conduct full financial and 
investigative analyses. While this is a good start, we recognize much 
more needs to be done.
    Recognizing the need for greater action, HSI, CBP, and the USPIS 
are collaborating in the development of a more robust, Nation-wide 
effort to identify illicit opioids in mail facilities and interdict 
them. HSI is expanding the number of its trained investigators assigned 
to international mail facilities. These additional investigators will 
be seeking to conduct long-term, complex criminal investigations into 
opioid trafficking activities, with the goal of achieving additional 
significant seizures and arrests. These seizures and arrests will help 
disrupt the movement of illicit opioids and opioid precursors 
transiting through the mail and express consignment shipments, and will 
aid in the dismantling of distribution networks. The ultimate goal of 
course, is to reduce overdose deaths in the United States.
        smuggling of bulk fentanyl and heroin into pennsylvania
    A significant quantity of bulk Mexico-sourced heroin, and Chinese-
sourced fentanyl transiting through Mexico, entering or transiting 
Pennsylvania is smuggled across the shared border with Mexico via the 
land border ports of entry. Like other narcotics supplied by Mexico, 
heroin and fentanyl loads are often smuggled utilizing deep concealment 
within passenger vehicles, as the TCOs exploit the high volume of 
cross-border traffic at our ports of entry as part of their smuggling 
efforts. Heroin and fentanyl loads are also smuggled by pedestrians 
entering the United States at ports of entry, often concealed on their 
person, or in their bags or backpacks.
    Loaded vehicles often contain multiple types of illicit drugs, 
which we refer to as ``poly loads'' or ``mixed loads,'' diversifying 
their illicit product inventory to include increased amounts of heroin 
and fentanyl while also continuing to source methamphetamine, cocaine, 
and other drugs. HSI, as the investigative agency responsible for 
investigating smuggling at the ports of entry, works closely with CBP, 
to ensure that smuggling incidents with a nexus to Pennsylvania are 
vigorously investigated, and expanded to the networks behind the 
smuggling attempt.
    Additionally, intelligence developed through HSI's investigative 
efforts is shared with CBP to enhance and refine their targeting and 
interdiction efforts at the ports of entry.
    All of the drug supply entering the United States via the Southwest 
Border can be attributed to transnational criminal organizations. HSI 
continues to investigate and identify the leadership of these 
organizations to attack the critical organizational nodes of smuggling 
facilitators and financial networks that sustain their operations.
          ice's collaborative lines of effort in pennsylvania
    There is no single entity or solution that can stop the flow of 
dangerous illicit drugs such as fentanyl into the United States or keep 
them from harming the American public. Tackling this complex threat 
involves a united, comprehensive strategy and aggressive approach by 
multiple entities across all levels of government. Therefore, ICE, 
through its investigative arm, HSI, has long had inter-agency 
collaboration as one of its operational pillars. Law enforcement 
partnerships in Pennsylvania are uniquely strong, and all agencies are 
committed to doing everything they can to defeat the heroin and 
fentanyl crisis that is gripping our Nation. Through partnerships 
across Pennsylvania, across the Nation, and across the globe, HSI's 
commitment to collaboration is having a significant and positive 
impact.
Cyber Crimes Task Forces
    To that end, and as I briefly mentioned earlier, my office in 
Philadelphia recently established the Cyber Crimes Investigations Task 
Force to take on the unique challenges posed by Chinese-sourced and 
synthetic opioids sold through the dark net in Pennsylvania. HSI leads 
this task force in partnership with the Pennsylvania State Police, 
USPIS, the DEA, and the Pennsylvania National Guard's Counter Drug 
Program. The goal of the Task Force is to use every advanced 
technological law enforcement tool at our disposal and leverage HSI's 
strong State and Federal partnerships to address this growing problem. 
Specifically, the strategy of this group is to target both the source 
of supply as well as the financial chokepoints of this criminal 
activity. This HSI-led task force is uniquely positioned to target dark 
net vendors using HSI's robust undercover platforms; leveraging its 
extensive foreign law enforcement partnerships through its attache 
offices in China, Canada, and Europe; exercising its unique customs 
authorities and expansive cyber expertise and capabilities; and using 
the most advanced technical analytical capabilities to target crypto-
currency money launderers that enable the dark net transnational drug 
trafficking activities. This group has invested in the necessary 
resources, the latest technologies, and leveraged all possible 
partnerships to address the issues. However, more funding and resources 
are needed as we attempt to stay one step ahead of narcotics 
traffickers who continue to exploit and adapt new technologies to mask 
their illicit operations.
Border Enforcement Security Taskforces (BESTs)
    Border Enforcement Security Taskforces (BESTs) are DHS's primary 
platform to investigate opioid smuggling domestically. ICE currently 
operates BESTs in 62 locations throughout the United States. During 
fiscal year 2017, the number of BESTs increased 30 percent in response 
to the President's Executive Order 13773, Enforcing Federal Law with 
Respect to Transnational Criminal Organizations and Preventing 
International Trafficking. BESTs leverage the participation of more 
than 1,000 Federal, State, local, Tribal, and foreign law enforcement 
agents and officers representing over 100 law enforcement agencies to 
target opioid smuggling. In Pennsylvania, HSI oversees two BESTs, one 
that covers Philadelphia's sprawling seaport facilities and another at 
the Philadelphia International Airport. BESTs leverage the abilities 
and authorities of the participating agencies by unifying all under a 
single law enforcement effort.
    These unifying efforts are critical for combatting the TCOs that 
smuggle fentanyl and other drugs from land borders for distribution in 
our heartland. This real-time sharing provides HSI optimal opportunity 
to efficiently initiate investigations of the distribution networks in 
Pennsylvania. To cite a real-world example, in May 2017, Special Agents 
of HSI Cincinnati, in cooperation with State and local law enforcement 
in Ohio, conducted a narcotics interdiction operation. The Ohio State 
Highway Patrol employed a narcotics detection K-9, which alerted to the 
odor of narcotics. A search of the vehicle uncovered 6 tape-wrapped 
bundles containing approximately 7 kilograms of fentanyl and heroin. 
The driver informed investigators that he was provided the drug-laden 
vehicle in California to make drug deliveries to a number of locations, 
including Philadelphia, Pennsylvania. HSI offices in Ohio and 
Pennsylvania rapidly coordinated to continue the enforcement operation 
to Philadelphia, where my BEST program initiated an investigation that 
resulted in the identification of a drug-trafficking organization in 
Philadelphia. Upon arrival in Philadelphia the driver of the subject 
vehicle was directed to a specific location by members of the 
organization, resulting in the arrests of two suspected drug 
traffickers. This case, though certainly not an infrequent occurrence 
within HSI, speaks to the level of seamless coordination that occurs 
between HSI BEST programs to ensure opioid investigations are conducted 
as comprehensively as possible.
Partnership with the Allegheny County Medical Examiner's Office
    In the western part of Pennsylvania, HSI has developed a 
collaborative relationship with the Allegheny County Medical Examiner's 
Office drug laboratory. As HSI agents encounter suspected fentanyl and 
fentanyl analogues through parcel interdiction and enforcement actions, 
these substances are turned over to the laboratory for identification 
and analysis. Often, the laboratory is able to provide the results of 
their testing back to agents and prosecutors within 24 hours allowing 
for controlled deliveries and prosecutorial charging decisions.
    In May 2017, after HSI seized an international parcel, the 
Allegheny County lab determined the contents to consist of 100 grams of 
cyclopropyl fentanyl, representing the first known identification of 
this analogue in the United States. HSI agents conducted a controlled 
delivery which led to the identification of an individual who was known 
by local authorities to be a street-level dealer. Further investigation 
by HSI determined that the individual had received multiple parcels 
from China and that he was more than likely one of the major importers/
distributors in western Pennsylvania. During the execution of a search 
warrant at a residence, one subject who was at the time in the process 
of packaging fentanyl and cutting compounds for resale overturned the 
table in front of him and attempted to flee, causing the substances to 
become airborne. Several law enforcement officers were exposed to the 
airborne substance and one officer subsequently exhibited symptoms, 
including a tingling sensation and shortness of breath; resulting in 
on-site treatment by EMTs. The officer was transported in an abundance 
of caution to a local hospital for evaluation of possible exposure. 
Fortunately, HSI had followed the agency safety protocol and had an 
emergency medical technician and clandestine laboratory response team 
on standby near the scene of the search warrant.
    This investigation highlights some of the major challenges law 
enforcement faces in the fight against opioids. The relationship with 
the Allegheny County Medical Examiner's Office has been beneficial in 
identifying these substances. The Medical Examiner's Office shared the 
information about the identification of cyclopropyl fentanyl within the 
medical examiner community and learned that this fentanyl analogue was 
the cause of overdose deaths in one midwestern State and one State in 
the Pacific Northwest. This case also highlights the risk of exposure 
to agents, officers, and first responders who may encounter these 
dangerous substances during the course of their duties.
High-Intensity Drug Trafficking Areas (HIDTAs)
    Created by Congress through the Anti-Drug Abuse Act of 1988, and 
led by the Office of National Drug Control Policy, the HIDTA program 
provides assistance to Federal, State, local, and Tribal law 
enforcement agencies operating in areas determined to be critical drug 
trafficking regions of the United States. Like the BESTs, the HIDTA 
Task Forces ensure that the concerns of all the participating agencies, 
to include the State, local, and Tribal agencies, are included in 
investigative priorities; which certainly includes the impact of heroin 
and fentanyl on their communities. HSI works very closely with all 
Pennsylvania HIDTA member agencies. In Philadelphia, HSI leads and 
houses the Liberty Mid-Atlantic's Money Laundering and Asset Forfeiture 
Task Force.
 ice's use of collaboration centers outside of pennsylvania to attack 
                       the threat in pennsylvania
National Targeting Center--Investigations (NTC-I)
    ICE HSI participates in CBP's NTC program through the National 
Targeting Center--Investigations (NTC-I), which leverages intelligence 
gathered during HSI investigations and exploits it using CBP advance 
data to target the flow of drugs into the United States. The NTC-I 
works to share information between CBP and ICE HSI entities world-wide.
    ICE HSI has assigned special agents to work within the NTC Cargo 
(NTC-C) Narcotics Division. These special agents serve as liaisons 
between the NTC and ICE HSI personnel in both domestic and 
international posts. HSI investigative case data is fused with CBP 
targeting information to bolster investigations targeting illicit 
opioid smuggling and trafficking organizations. HSI and CBP in 
Pennsylvania share heroin and fentanyl seizure data and intelligence 
with the NTC to ensure the maximum exploitation of our combined 
efforts, more complete targeting, and more robust and impactful 
investigations. HSI in Pennsylvania receives training from the NTC to 
ensure our investigators and analysts are apprised of the latest 
narcotics smuggling and trafficking trends and tactics utilized by 
TCOs.
    NTC-I conducts post-seizure analysis based on ICE seizures in the 
field and CBP seizures at the ports of entry. The analysis is critical 
to identifying networks that transport illicit opioids throughout the 
United States. The resulting products are then shared with the affected 
HSI offices in the form of investigative leads. Another key component 
of the post-seizure analysis is the financial investigation. The NTC-I 
focuses on the financial element of the smuggling organization by 
exploiting information gathered from multiple financial databases.
Cyber Crimes Division
    The ICE HSI Cyber Crimes Division provides support and assistance 
to field cyber investigations targeting dark net illicit marketplaces, 
where fentanyl and chemical precursors proliferate. This includes 
significant support to our efforts in Pennsylvania to stand-up a fully-
functioning and adequately-equipped Cyber Crimes Investigations Task 
Force. Recognizing the need to proactively target on-line opioid 
trafficking, the ICE HSI Cyber Crimes Division is identifying on-going 
investigations and facilitating the coordination of on-line and in-
person undercover operations conducted in furtherance of dark net 
illicit marketplaces.
    As criminal activity, and especially the trade of illicit opioids, 
continues to migrate to the on-line world, ICE HSI faces growing demand 
for cyber investigative assistance. Through the Human Exploitation 
Rescue Operative (HERO) program, the Cyber Crimes Division is training 
military veterans and transitioning service members to continue their 
service to the Nation in the field of computer forensics. HSI in the 
Philadelphia area recently employed one HERO intern a full-time 
computer forensic agent following completion of his internship in 
Philadelphia, bolstering our ability to fight cyber-enabled crimes.
Special Operations Division (SOD)
    The DEA's Special Operations Division (SOD) Heroin and Fentanyl 
Task Force (HFTF) is supported by ICE, CBP, DEA, USPIS, and several 
other Federal agencies. The SOD-led, interagency task force exploits 
electronic communications to proactively identify, disrupt, and 
dismantle the production, transportation, and financial networks behind 
heroin and illicit fentanyl distribution organizations that impact the 
United States.
    The HFTF leverages the collaborative use of each agency's 
authorities and unique capabilities in order to better share and 
deconflict information. The HFTF works together to target international 
and domestic organizations by proactively working with field offices. 
The task force also assists in coordinating and linking investigations 
from the street-level dealer to the international supply source.
    In Pennsylvania, HSI sends special agents and analysts to SOD, 
where they coordinate and deconflict investigative data and share best 
practices with law enforcement partners. HSI personnel advance the 
mission of SOD through their unique and in-depth knowledge of cartels 
and prolific dark net vendor sites. This expertise, honed through their 
investigative experience in Pennsylvania combined with the resources of 
SOD and the HFTF, contributes significantly to investigations, not only 
by HSI, but by other agencies, in Pennsylvania and beyond.
Financial Division
    Identifying, analyzing, and investigating the payment systems that 
facilitate the purchase and smuggling of opioids is critical to the 
disruption and dismantlement of networks that smuggle fentanyl and 
other illicit opioids into the United States. HSI conducts proactive 
investigations that focus on the two key payment systems, which support 
illicit procurement of opioids: Money service businesses (MSBs) and 
cryptocurrencies. Generally, illicit opioids that are purchased on the 
``indexed'' internet are paid for through licensed mainstream MSBs. On 
dark net marketplaces and other ``unindexed'' websites, purchases are 
often paid for with cryptocurrencies such as bitcoin. In support of its 
diverse financial investigative efforts, HSI uses undercover techniques 
to infiltrate and exploit peer-to-peer cryptocurrency exchangers who 
typically launder proceeds for criminal networks engaged in or 
supporting dark net marketplaces. Furthermore, HSI leverages complex 
Blockchain technology exploitation tools to analyze the digital 
currency transactions and identify users. A number of HSI Philadelphia 
Special Agents are recognized as experts on the subject of 
cryptocurrencies. They now provide training to our State and local law 
enforcement partners, thereby enabling a wider array of officers the 
training on the tools necessary to pierce the anonymity relied upon by 
dark net users.
    HSI created the Money Service Business Initiative to enable the 
application of advanced data analytics across large amounts of MSB data 
to isolate criminal networks, highlight suspicious transactions 
indicative of illicit activity, and provide predictive intelligence.
    With support of its headquarters Financial Division and NTC, HSI in 
Pennsylvania regularly pursues complex investigations of the drug 
traffickers' exploitation of our legitimate financial systems, and the 
laundering and movement of their illicit proceeds via trade-based money 
laundering and the exploitation of cryptocurrencies. HSI's targeting of 
these types of illicit money laundering networks has been successful in 
Pennsylvania; since May 2017, my office has seized well over $1 million 
worth of cryptocurrencies from dark net opioid traffickers and have 
arrested several individuals that act to launder their illicit profits.
    Collectively, efforts in the HSI Philadelphia area of 
responsibility have resulted in the seizure of approximately 267 pounds 
of opioids in connection with HSI cases; and resulted in 154 criminal 
arrests, from the beginning of fiscal year 2017 to the present.
    Nation-wide, our efforts have resulted in the seizure of over 
15,000 pounds of opioids in connection with HSI cases; and resulted in 
7,889 criminal arrests, from the beginning of fiscal year 2017 to the 
present.
                      international collaboration
    HSI in Pennsylvania concentrates on investigations that reveal an 
international nexus. With HSI's international presence of 67 offices in 
50 countries, we are constantly looking to push our investigations 
beyond our borders. In Pennsylvania, this means daily collaboration 
with our HSI attache and assistant attache offices in Mexico and Asia 
to systemically target overseas sources of opioids and synthetic 
narcotics. Through strategic and targeted intelligence sharing, and 
joint investigative efforts, the impacts of our investigations are 
magnified. Whether through bi-national operations to arrest TCO 
leadership, or through sharing a piece of intelligence that may 
illuminate a previously-unknown network, the building and strengthening 
of these partnerships is key to our efforts to combat the cartels and 
to stop threats, to include illicit opioids, before they reach our 
borders.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of HSI and its law enforcement mission. HSI 
is committed to battling the U.S. opioid crisis. This includes HSI's 
collaborative efforts to reduce and ultimately stop the flow of these 
dangerous drugs across the border here in the Commonwealth of 
Pennsylvania. HSI will continue to vigorously pursue the cartels that 
bring not only heroin and fentanyl to the United States, but other 
narcotics that have a dangerous, and too often deadly, impact on our 
communities. The opioid crisis is an epidemic that demands continued 
urgent and immediate action across law enforcement agencies and in 
conjunction with experts in the scientific, medical, and public health 
communities. I appreciate your interest in this important issue and 
look forward to your questions.

    Mr. Perry. Well, thank you, Special Agent Miller.
    The Chair now recognizes Director Durst for her testimony.

 STATEMENT OF CASEY OWEN DURST, DIRECTOR OF FIELD OPERATIONS--
  BALTIMORE FIELD OFFICE, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Durst. Chairman Perry and Representative Thompson, 
thank you for the opportunity to appear before you today.
    In my 21 years with the former U.S. Customs Service, and 
now U.S. Customs and Border Protection, I have had the 
privilege to work at some of the largest airports in the United 
States, along our borders, and at headquarters securing our 
Nation's borders while facilitating legitimate trade and 
travel.
    I have seen and experienced first-hand the challenges we 
face in the passenger, trade, express consignment, and 
international mail environments. I have also witnessed the 
dedication of my colleagues in protecting this Nation.
    U.S. Customs and Border Protection Office of Field 
Operations interdicts drugs and other dangerous items at our 
ports of entry, including mail and express consignment 
facilities, by leveraging advanced data, automated targeting, 
intelligence, and the use of detection technology.
    Front-line operations at ports of entry, including drug 
interdiction activities, are extremely hands-on and we train 
and equip our officers with personal protective equipment. 
Further, we have deployed naloxone across the country to ensure 
a swift response if an employee or a K-9 is exposed to overdose 
levels of opioids.
    Nationally in fiscal year 2018 to date, the efforts of U.S. 
Customs and Border Protection has resulted in the seizure of 
more than 545,000 pounds of narcotics, including over 38,000 
pounds of methamphetamine, 35,000 pounds of cocaine, 2,700 
pounds of heroin, and 1,200 pounds of illicit fentanyl.
    At our ports of entry and in the international mail and 
express consignment environments, U.S. Customs and Border 
Protection utilizes technology such as nonintrusive inspection, 
X-ray, and gamma ray imaging systems to detect illicit 
narcotics hidden on people, in cargo containers, and in other 
conveyances entering into the United States.
    CBP has also deployed innovative technologies to 
presumptively identify illicit narcotics within minutes. This 
enhances officer safety and allows immediate coordination with 
Immigration and Customs Enforcement, Homeland Security 
Investigations for possible controlled delivery and 
prosecution.
    In addition to technology, K-9 operations play an 
invaluable role in U.S. Customs and Border Protection's 
counter-narcotic operations. Concealed human and narcotic 
detection K-9s are trained to detect concealed people and 
narcotics, including marijuana, cocaine, heroin, 
methamphetamine, hashish, ecstasy, fentanyl, and fentanyl 
analogs. In fact, CBP was the first Federal law enforcement 
agency in the United States to train K-9s to detect fentanyl, 
and our K-9 teams have helped to detect over 240 pounds of 
fentanyl since their training was completed.
    For opioids and fentanyl specifically, transnational 
criminal organizations attempt to smuggle large quantities of 
low purity opioids through the Southern Border, and small 
quantities of high purity opioids via mail and express 
consignment. In the international mail arena, shipments have 
increased 200 percent over the past 5 years. This increase 
presents challenges as even small packages of these substances 
can threaten the health and safety of the American people.
    U.S. Customs and Border Protection is meeting this 
challenge head-on. Recent bilateral agreements regarding 
advance electronic data between United States Postal Service 
and foreign postal operators have increased our ability to 
target high-risk shipments. U.S. Customs and Border Protection 
and the United States Postal Service have partnered on an 
operational targeting program at five of our main international 
mail facilities, with plans for further expansion, and we 
continue to work with foreign postal operators to highlight the 
benefits of providing advance data.
    Collaborations such as this with our Federal, State, and 
local partners yield results that enhance the security of our 
borders and our communities. Last year, U.S. Customs and Border 
Protection at the area Port of Philadelphia led a multi-agency 
investigation that included Federal task force officers, the 
Pennsylvania Attorney General's office, and the Philadelphia 
Police Department that resulted in Federal indictments against 
six defendants for possession with intent to distribute more 
than 990 pounds of cocaine within a school zone. This 
collaborative effort was an exceptional multi-agency narcotics 
and money laundering case where the lead CBP officer was 
recognized with an outstanding police performance award 
bestowed upon him by the Pennsylvania Narcotics Officers' 
Association.
    In coordination with our partners and with the continued 
support of Congress, U.S. Customs and Border Protection will 
continue to work to prevent the entry of illicit opioids and 
other narcotics into the United States.
    Chairman Perry and Representative Thompson, thank you for 
the opportunity to testify today, and I look forward to your 
questions.
    [The prepared statement of Ms. Durst follows:]
                 Prepared Statement of Casey Owen Durst
                             June 19, 2018
                              introduction
    Chairman Perry, Ranking Member Correa, and distinguished Members of 
the subcommittee, thank you for the opportunity to appear today to 
discuss the role of U.S. Customs and Border Protection (CBP) in 
combating the flow of opioids, including synthetic opioids such as 
fentanyl, into the United States. The opioid crisis is one of the most 
important, complex, and difficult challenges our Nation faces today, 
and was declared a National Emergency by President Donald Trump in 
October of last year.\1\
---------------------------------------------------------------------------
    \1\ https://www.whitehouse.gov/briefings-statements/president-
donald-j-trump-taking-action-drug-addiction-opioid-crisis/
---------------------------------------------------------------------------
    As America's unified border agency, CBP plays a critical role in 
preventing illicit narcotics, including opioids, from reaching the 
American public. CBP leverages targeting and intelligence-driven 
strategies, and works in close coordination with our partners as part 
of our multi-layered, risk-based approach to enhance the security of 
our borders and our country. This layered approach reduces our reliance 
on any single point or program, and extends our zone of security 
outward, ensuring our physical border is not the first or last line of 
defense, but one of many.
              opioid trends, interdictions, and challenges
    In fiscal year 2018 to-date, the efforts of Office of Field 
Operations (OFO) and U.S. Border Patrol (USBP) personnel resulted in 
the seizure of more than 545,000 lbs. of narcotics including over 
38,000 lbs. of methamphetamine, over 35,000 lbs. of cocaine, and over 
2,700 lbs. of heroin.\2\ CBP seizures of illicit fentanyl have 
significantly increased from approximately 2 lbs. seized in fiscal year 
2013 to approximately 1,131 lbs. seized by OFO and USBP in fiscal year 
2017.\3\ Approximately 1,218 lbs. of illicit fentanyl have already been 
seized in fiscal year 2018.\4\ Fentanyl is the most frequently seized 
illicit synthetic opioid, but CBP has also encountered 18 unique 
fentanyl analogues, and 9 unique synthetic opioids that are not from 
the fentanyl class.\5\
---------------------------------------------------------------------------
    \2\ https://www.cbp.gov/newsroom/stats/cbp-enforcement-statistics.
    \3\ https://www.cbp.gov/newsroom/stats/cbp-enforcement-statistics.
    \4\ https://www.cbp.gov/newsroom/stats/cbp-enforcement-statistics.
    \5\ These include: acetylfentanyl, butyrylfentanyl, b-
hydroxythiofentanyl, a-methylacetylfentanyl, p-fluorobutyrylfentanyl, 
p-fluorofentanyl, pentanoylfentanyl (a.k.a. valerylfentanyl), 2-
furanylfentanyl, p-fluoroisobutyrylfentanyl, n-hexanoylfentanyl, 
carfentanil, benzodioxolefentanyl, acrylfentanyl, 2,2-
difluorofentanyl, methoxyacetylfentanyl, benzoylfentanyl, 
cyclopropylfentanyl, and hydrocinnamoylfentanyl.
---------------------------------------------------------------------------
    Illicit drug interdictions in the border environment is both 
challenging and complex. Drug Trafficking Organizations (DTOs) and 
Transnational Criminal Organizations (TCOs) continually adjust their 
operations to circumvent detection and interdiction by law enforcement, 
quickly taking advantage of technological and scientific advancements 
and improving fabrication and concealment techniques.
International Mail and Express Consignment Couriers
    The smuggling of illicit narcotics in the international mail and 
express consignment courier (ECC) environments poses a significant 
threat. Dozens of different types of illicit synthetic drugs, also 
called ``designer drugs,'' are currently being sold and shipped to end-
users in the United States, including synthetic opioids such as 
fentanyl and its analogues, synthetic cannabinoids,\6\ and synthetic 
cathinones.\7\ Illicit fentanyl and fentanyl analogues are the most 
frequently-seized synthetic opioids; although CBP seizures of illicit 
fentanyl and fentanyl analogues remain relatively small compared to 
other opioids, such as heroin, the amounts seized have significantly 
increased over the past several years, from approximately 2 lbs. in 
fiscal year 2013 to approximately 544 lbs. in fiscal year 2016,\8\ and 
approximately 1,476 lbs. in fiscal year 2017.\9\
---------------------------------------------------------------------------
    \6\ Synthetic cannabinoids are drugs that do not contain marijuana 
but are pharmacologically similar to tetrahydrocannabinol (https://
www.cdc.gov/mmwr/volumes/65/wr/mm6527a2.htm).
    \7\ Synthetic cathinones, more commonly known as ``bath salts,'' 
are synthetic drugs chemically related to cathinone, a stimulant found 
in the khat plant (https://www.drugabuse.gov/publications/drugfacts/
synthetic-cathinones-bath-salts).
    \8\ This includes approximately 440 lbs. seized at POEs (including 
mail and ECC facilities) and 104 lbs. seized at U.S. Border Patrol 
checkpoints.
    \9\ https://www.cbp.gov/newsroom/stats/cbp-enforcement-statistics-
fy2017.
---------------------------------------------------------------------------
    Illicit narcotics can be purchased from sellers through on-line 
transactions and then shipped via the United States Postal Service 
(USPS) or ECCs. DTOs and individual purchasers move drugs such as 
illicit fentanyl and fentanyl analogues in small quantities, making 
detection and targeting a significant challenge. Follow-on 
investigations, which are conducted by U.S. Immigration and Customs 
Enforcement Homeland Security Investigations (ICE-HSI), are also 
challenging because these shippers are often not the hierarchically-
structured DTOs we encounter in other environments. Purchasers can also 
access open source dark web marketplaces for the tools needed for the 
manufacturing of synthetic drugs.
    In the ECC environment, shipments are processed at 25 established 
facilities located throughout the United States. Prior to arrival of 
the express parcels, CBP reviews the manifest information transmitted 
by the ECC operators and targets those high-risk packages requiring 
examination. All parcels presented to CBP for examination are subjected 
to Non-Intrusive Inspection (NII) to include X-ray and gamma ray 
imaging. CBP operates in all 25 facilities Nation-wide.
    CBP also operates within 9 International Mail Facilities (IMF), 
inspecting international mail arriving from more than 180 countries. 
Upon arrival in the United States, all international mail parcels are 
screened for radiological threats. International mail requested for 
inspection by CBP is then turned over to CBP by USPS. Subsequently, CBP 
X-rays international mail packages that it requests from the USPS for 
inspection, and physically examines those deemed to be high-risk.
    CBP has seen a nearly 50 percent increase in express consignment 
shipments over the past 5 years. In fiscal year 2013, CBP processed 
over 76 million express bills; in fiscal year 2017, CBP processed 
approximately 110 million bills. International mail shipments have 
increased an astonishing 200 percent over the past 5 years. In fiscal 
year 2013, CBP and the USPS processed approximately 150 million 
international mail shipments. By fiscal year 2017, the number of 
international mail shipments had swelled to over 400 million shipments.
Along the Southern Border
    DTOs seek to smuggle opioids, most notably heroin, across our 
Southwest Border and into the United States at and between our 
POEs,\10\ and Mexican manufacturers and traffickers continue to be 
major suppliers of heroin to the United States. The reach and influence 
of Mexican cartels, notably the Sinaloa, Gulf, and Jalisco New 
Generation Cartels, stretch across and beyond the Southwest Border, 
operating through loose business ties with smaller organizations in 
communities across the United States. The threat of these cartels is 
dynamic; rival organizations are constantly vying for control, and as 
U.S. and Mexican anti-drug efforts disrupt criminal networks, new 
groups arise and form new alliances.
---------------------------------------------------------------------------
    \10\ Heroin is also sometimes transported by couriers on commercial 
airlines. Heroin intercepted in the international commercial air travel 
environment is from South America, Southwest Asia, and Southeast Asia.
---------------------------------------------------------------------------
Along the Northern Border
    Reporting indicates that cocaine and methamphetamine move north 
into Canada after transiting the United States from Mexico, while 
smaller quantities of marijuana, and ecstasy flow south from Canada 
into the United States. While Northern Border POE seizures of 
methamphetamine and heroin are low, ICE investigative case reporting 
indicates that trafficking of these drugs are still responsible for 
significant social harm and public health and safety consequences at 
the individual and community levels in specific Northern Border 
communities such as Massena, New York.
            cbp resources and capabilities to target opioids
    CBP, with the support of Congress, has made significant investments 
and improvements in our drug detection and interdiction technology and 
targeting capabilities. These resources, along with enhanced 
information sharing and partnerships, are critical components of CBP's 
ability to identify and deter the entry of dangerous illicit drugs in 
all operational environments.
Advance Information and Targeting
    An important element of CBP's layered security strategy is 
obtaining advance information to help identify shipments that are 
potentially at a higher risk of containing contraband. Under section 
343 of the Trade Act of 2002 (Pub. L. No. 107-210), as amended, and 
under the Security and Accountability for Every Port Act or SAFE Port 
Act of 2006, (Pub. L. No. 109-347), CBP has the legal authority to 
collect key cargo data elements provided by air, sea, and land 
commercial transport companies (carriers), including ECCs and 
importers.\11\ This information is automatically fed into CBP's 
Automated Targeting System (ATS), a secure intranet-based enforcement 
and decision support system that compares cargo and conveyance 
information against intelligence and other enforcement data.
---------------------------------------------------------------------------
    \11\ Under TSA requirements, international mail destined for the 
United States is treated similarly to other cargo and subject to 
security controls. These security controls, are applied to 
international mail prior to transporting on aircraft at last-point-of-
departure locations to the United States. 49 U.S.C. 44901(a) states: 
``The Under Secretary of Transportation for Security shall provide for 
the screening of all passengers and property, including United States 
mail, cargo, carry-on and checked baggage, and other articles, that 
will be carried aboard a passenger aircraft.'' Under 49 C.F.R. 1540.5, 
``Cargo means property tendered for air transportation accounted for on 
an air waybill. All accompanied commercial courier consignments whether 
or not accounted for on an air waybill, are also classified as cargo. 
Aircraft operator security programs further define the term `cargo.' '' 
These requirements are not dependent on advance electronic manifest 
data, as provided by ECC operators and other participants in the Air 
Cargo Advance Screening (ACAS) pilot program.
---------------------------------------------------------------------------
The National Targeting Center
    At CBP's National Targeting Center (NTC), advance data and access 
to law enforcement and intelligence records converge to facilitate the 
targeting of travelers and items of cargo that pose the highest risk to 
our security in all modes of inbound transportation. The NTC takes in 
large amounts of data and uses sophisticated targeting tools and 
subject-matter expertise to analyze, assess, and segment risk at every 
stage in the cargo/shipment and travel life cycles. As the focal point 
of that strategy, the NTC leverages classified, law enforcement, 
commercial, and open-source information in unique, proactive ways to 
identify high-risk travelers and shipments at the earliest possible 
point prior to arrival in the United States.
    To bolster its targeting mission, the dedicated men and women of 
the NTC collaborate with critical partners on a daily basis including 
ICE-HSI, the Drug Enforcement Administration (DEA), the Federal Bureau 
of Investigation (FBI), members of the intelligence community, and the 
United States Postal Inspection Service (USPIS). Investigative case 
data is fused with CBP targeting information to bolster investigations 
targeting illicit narcotics smuggling and trafficking organizations. 
Moreover, NTC works in close coordination with several pertinent task 
forces including the Organized Crime Drug Enforcement Task Force, the 
High Intensity Drug Trafficking Areas, and the Joint Interagency Task 
Force-West, as well as the Department of Homeland Security's (DHS) 
Joint Task Forces (JTF).
Advance Electronic Data
    In the postal environment, recent bi-lateral agreements regarding 
advance electronic data (AED) between USPS and foreign postal operators 
have increased CBP's ability to target high-risk shipments. CBP and 
USPS now have an operational AED targeting program at five of our main 
IMFs with plans for further expansion. USPS is responsible for locating 
the shipments and delivering them to CBP for examination. Thus far in 
fiscal year 2018, CBP has interdicted 186 shipments of fentanyl and 
fentanyl analogues at the John F. Kennedy International Airport (JFK) 
IMF, a participant in the AED program. One hundred and twenty-five of 
those interdictions can be attributed to AED targeting. CBP and USPS 
continue to work with foreign postal operators to highlight the 
benefits of transmitting AED.
    CBP, in close coordination with USPS and FDA, provided technical 
assistance on the pending Synthetics Trafficking and Overdose 
Prevention (STOP) Act to address these challenges in a multi-phase 
process, which emphasizes risk assessment, technology, and 
collaboration across the Federal Government and with our international 
partners. We support efforts to expand the ability of USPS to collect 
fees to help offset the additional cost associated with building the 
capacity of foreign postal operators to implement AED collection, to 
develop new scanning technology, and increase the availability of AED 
for international mail.
Targeting Precursors
    Many of the precursor chemicals that can be used to synthesize 
synthetic opioids such as fentanyl are currently non-regulated and many 
have legitimate uses. However, CBP has sufficient authority to seize 
precursors if they can be identified as having illicit end-use 
intentions, including the production of illicit drugs. CBP targets 
precursor chemicals transiting the United States with destinations to 
Mexico and other countries. When these shipments are identified through 
interagency collaboration as having illicit end-use intentions, the 
shipments are offloaded for further inspection and enforcement action 
by external agencies such as the DEA and ICE-HSI.
    In addition to targeting illicit substances directly, CBP also 
targets related equipment such as pill presses and tablet machines. DEA 
regulates pill press/tablet machines and there is an ICE Diversion 
Coordinator assigned to the DEA Special Operations Division (SOD) who 
oversees the investigations of pill press/tablet machine imports being 
diverted for illicit uses. The Diversion Coordinator works closely with 
the NTC to identify and target individuals importing and diverting pill 
press/tablet machines to produce fentanyl and other synthetic drugs. In 
fiscal year 2014, 24 seizures of pill presses and tablet machines were 
made by OFO. The number increased to 92 in fiscal year 2017.
     cbp resources and capabilities to detect and interdict opioids
    CBP, with the support of Congress, has made significant investments 
and improvements in our drug detection and interdiction technology and 
targeting capabilities. CBP officers utilize a variety of technologies 
and narcotics detection canines to detect and presumptively identify 
illicit drugs, including illicit opioids, at international mail and 
express consignment carrier facilities.
Non-Intrusive Inspection Equipment
    At our POEs and in the international mail and express consignment 
environments, CBP utilizes technology, such as non-intrusive inspection 
(NII), X-ray, and gamma ray imaging systems to detect the illegal 
transit of synthetic drugs hidden on people, in cargo containers, and 
in other conveyances entering the United States. CBP currently has 304 
large-scale NII systems and over 4,500 small-scale systems deployed to, 
and between, POEs. These systems enable CBP officers to examine cargo 
conveyances such as sea containers, commercial trucks, and rail cars, 
as well as privately-owned vehicles, ECC, and international mail 
parcels for the presence of contraband without physically opening or 
unloading them. This allows CBP to work smarter and faster in detecting 
contraband and other dangerous materials. Between October 1, 2003 and 
April 30, 2018, CBP conducted more than 87 million NII examinations, 
resulting in more than 20,000 narcotics seizures and more than $79.2 
million in currency seizures.
Canines
    Canine operations are an invaluable component of CBP's 
counternarcotic operations. The CBP Canine Training Program maintains 
the largest and most diverse law enforcement canine training program in 
the country. CBP officers utilize specially-trained canines for the 
interdiction of narcotics, firearms, and undeclared currency, as well 
as in support of specialized programs aimed at combating terrorism and 
countering human trafficking. OFO Concealed Human and Narcotic 
Detection Canines are trained to detect concealed humans and the odors 
of marijuana, cocaine, heroin, methamphetamine, hashish, ecstasy, 
fentanyl, and fentanyl analogues.
    The use of canines in the detection of narcotics is a team effort. 
CBP's Laboratories and Scientific Services Directorate (LSSD) produces 
canine training aids and provides analytical support to the CBP Canine 
Training Program, including controlled substance purity determinations, 
training aid quality analyses, and research on delivery mechanisms that 
maximize safe vapor delivery during training exercises. Most recently, 
OFO's National Canine Program, in coordination with LSSD, assessed the 
feasibility of safely and effectively adding fentanyl and fentanyl 
analogues as trained odors to deployed narcotic detection canine teams. 
On June 23, 2017, the Office of Training and Development's CBP Canine 
Training Program successfully completed its first Fentanyl Detection 
Pilot Course. This added the odors of fentanyl and fentanyl analogues 
to six OFO canine handler teams in the international mail and ECC 
environments. Beginning October 1, 2018, all new OFO canine handler 
teams graduating from the CBP Canine Training Program will have 
successfully completed a comprehensive CBP Canine Detection Team 
Certification to include the odors of fentanyl and fentanyl analogues. 
Today, all OFO Concealed Human and Narcotic Detection canine teams 
across all of OFO's operational environments have completed fentanyl 
training.
    During fiscal year 2017, OFO canine teams were responsible for 
$26,813,863 in seized property, $1,905,925 in fines, $36,675,546 in 
seized currency, $29,674,839 in Financial Crimes Enforcement Network 
(FINCEN) actions, 197 firearms and 22,356 rounds of ammunition, 79 
concealed humans, and 384,251 lbs. of narcotics. In fiscal year 2018 
to-date, OFO canine teams have been responsible for $7,322,522 seized 
property, $411,073 in fines, $7,951,376 in seized currency, $9,178,971 
in FINCEN actions, 150 firearms, 5,418 rounds of ammunition, 105 
concealed humans, and 187,409 lbs. of narcotics.\12\
---------------------------------------------------------------------------
    \12\ Effective 4/24/18.
---------------------------------------------------------------------------
Laboratory Testing
    As the narcotics seized through the international mail and at ECC 
facilities usually have a very high purity, CBP officers at IMFs and 
ECC facilities use various field testing devices to rapidly screen 
suspected controlled substances and obtain presumptive results. Using 
CBP's Laboratories and Scientific Services Directorate (LSSD) Field 
Triage Reachback Program, CBP officers can transmit sample data 
directly to LSSD for scientific interpretation and identification. When 
any synthetic opioids are detected by the reachback program, LSSD 
notifies key CBP personnel at the NTC, as well as our liaisons at the 
DEA. CBP is working to expand the field testing program, along with the 
scientific assets and personnel who are able to provide real-time 
chemical composition determinations.
    In 2016, CBP pilot tested four handheld tools and a new reagent 
test kit to provide immediate presumptive testing for fentanyl and 
fentanyl analogues. Based on the results of the pilot, OFO procured 12 
systems for further testing across San Diego, Tucson, El Paso, and 
Laredo Field Offices. Last year CBP purchased over 90 handheld 
analyzers for deployment. Handheld analyzers improve officer safety, 
and provides a near real-time capability to increase narcotic 
interdiction.
Workforce Protection
    CBP's front-line operations, including drug interdiction 
activities, are extremely hands-on. The potential for contact with 
dangerous substances--especially illicit synthetic opioids--is a very 
real health and safety risk to law enforcement personnel and canines. 
For example, in its pure powder form, fentanyl is approximately 50-100 
times more potent in its intensity, speed of action, and effect than 
morphine, and, at first glance, it is often mistaken for other drugs, 
which appear as white powders such as cocaine or heroin. Due to the 
risk of unintentional exposure and subsequent hazardous drug absorption 
and/or inhalation, the confirmatory testing for the presence of 
synthetic opioids such as fentanyl and its analogues is best executed 
in a laboratory by trained scientists and technicians.
    Explicit instructions, including guidance to canine handlers, have 
been distributed to the field regarding the safe handling of fentanyl 
and fentanyl analogues. Additionally, in response to increased seizures 
at LPOEs and the upsurge in the use of heroin across the Nation, in 
October 2015 CBP completed Phase 1 of a pilot program to train and 
equip CBP officers with naloxone, a potentially life-saving drug for 
the treatment of opioid exposure. During Phase I, CBP officers at seven 
participating POEs \13\ received training on recognizing the signs and 
symptoms of opioid exposure, administering naloxone, and were certified 
as CPR instructors. In February 2016, CBP initiated Phase II of the 
Naloxone Initiative Pilot Program, expanding the pilot to an additional 
eight POEs and deploying 602 dual-dose Narcan Nasal Spray kits to the 
field.\14\ To date, OFO has deployed 1,119 two-dose boxes of naloxone 
to the field. Additional naloxone is being deployed to field offices 
upon request, as additional personnel are trained in its 
administration. The naloxone program has also expanded to LSSD to help 
protect its scientists in both its main and satellite laboratories. CBP 
was the first Federal law enforcement agency to implement such a 
program.
---------------------------------------------------------------------------
    \13\ Phase 1 Naloxone Pilot Program POEs include El Paso; Laredo; 
Fort Lauderdale International Airport; John K. Kennedy International 
Airport; San Luis: San Ysidro; and Seattle/Blaine.
    \14\ Phase 2 Naloxone Pilot Program POEs include Miami Int'l/Miami 
Seaport; Boston; Buffalo; Detroit; Newark; Chicago; Houston Int'l/
Houston Seaport; and Dallas.
---------------------------------------------------------------------------
            information sharing and operational coordination
    Substantive and timely horizontal and vertical information sharing 
is critical to targeting and interdicting illicit drugs. CBP works 
extensively with our Federal, State, local, Tribal, and international 
partners and provides critical capabilities toward the whole-of-
Government approach to address drug trafficking and other transnational 
threats at POEs, in our IMFs and ECCs, and along the Southwest Border, 
Northern Border, and coastal approaches. Our targeting, detection, and 
interdiction efforts are enhanced through special joint operations and 
task forces conducted under the auspices of multi-agency enforcement 
teams. These teams are composed of representatives from international 
and Federal law enforcement agencies who work together with State, 
local, and Tribal agencies to target drug and transnational criminal 
activity, including investigations involving National security and 
organized crime.
    For example, CBP officers assigned to the Area Port of Philadelphia 
work extensively with the Pennsylvania State Police and Delaware State 
Police. For example, CBP officers recently collaborated with the 
Pennsylvania State Police, Eddystone Police Department, DHS's Border 
Enforcement Security Taskforce, and the Transportation Security 
Administration to conduct an operation at Penn Terminal. Container 
cargo, warehouses, and port grounds were scrutinized and several 
individuals were identified as being in possession of fraudulent 
identity documents. Previously-removed criminal aliens and a known gang 
member with an active warrant of arrest were also identified and taking 
into custody.
    The OFO Tactical Operations Division directs special enforcement 
operations, in concert with ICE-HSI and other law enforcement partners, 
to identify and disrupt drug smuggling at targeted POEs, IMFs, and ECC 
facilities. These operations involve NII technology, canine enforcement 
teams, Antiterrorism-Contraband Enforcement Teams, Special Response 
Teams, and other law enforcement partner resources. Baltimore Field 
Office CBP officers also provide support to the Delaware Valley 
Intelligence Center, Delaware Information and Analysis Center, and the 
Pennsylvania Criminal Intelligence Center (PaCIC). The mission of PaCIC 
is to support the decision-making process of Pennsylvania's law 
enforcement agencies through collating, analyzing, and disseminating 
intelligence and investigative information pertaining to criminal and 
terrorism activity.
    CBP hosts monthly briefings/teleconferences with Federal, State, 
and local partners regarding the current state of the border--the 
Northern Border and Southwest Border--to monitor emerging trends and 
threats and provide a cross-component, multi-agency venue for 
discussing trends and threats. The monthly briefings focus on drugs, 
weapons, and currency interdictions and alien apprehensions both at and 
between the POEs. These briefings/teleconferences currently include 
participants from: The government of Canada, the government of Mexico, 
DHS Headquarters, ICE, U.S. Coast Guard (USCG), DEA, FBI, U.S. Northern 
Command, Joint Interagency Task Force-South, Bureau of Alcohol, 
Tobacco, Firearms, and Explosives (ATF), U.S. Attorneys' Offices, Naval 
Investigative Command, State and Major Urban Area Fusion Centers, and 
other international, Federal, State, and local law enforcement as 
appropriate.
    CBP is a key partner in the implementation of the Office of 
National Drug Control Policy's (ONDCP) Heroin Availability Reduction 
Plan (HARP). CBP also utilizes the Department of Justice's Nation-wide 
Deconfliction System operated by the DEA, conducting interagency 
deconfliction and coordination, and is working with the Heroin and 
Fentanyl Working Group at the DEA Special Operations Division, 
alongside ICE-HSI. The Baltimore Field Office also contributes to the 
High-Intensity Drug Trafficking Area program (HIDTA), run by the United 
States Office of National Drug Control Policy, by sharing intelligence 
and contributing marine unit and other support to local joint 
operations.
    Collaboration with our partners yields results. For example, a CBP-
led multi-agency team seized fentanyl-laced heroin and marijuana, and 
arrested three during a compliance examination at the Port of 
Wilmington, Delaware on April 18, 2018. In addition to CBP, the multi-
agency team consisted of ICE-HSI, U.S. Coast Guard, Transportation 
Security Administration, Alcohol Tobacco Firearms and Explosives (ATF), 
Delaware State Police, and Delaware National Guard Counterdrug Task 
Force. Authorities arrested a man near one warehouse who was in 
possession of a distributable amount of fentanyl-laced heroin, and 
discovered two additional men in possession of marijuana near another 
warehouse. While inspecting Transportation Worker Identification 
Credential (TWIC) cards of arriving port workers, authorities detected 
two men with outstanding Delaware arrest warrants. Delaware State 
Police troopers took custody of the two men.\15\
---------------------------------------------------------------------------
    \15\ https://www.cbp.gov/newsroom/local-media-release/multi-agency-
team-bags-heroin-marijuana-3-arrests-during-port.
---------------------------------------------------------------------------
International Collaboration and Cooperation
    Because DTOs are also known to use legitimate commercial modes of 
travel and transport to smuggle drugs and other illicit goods, CBP 
partners with the private sector to provide anti-drug smuggling 
training to air, sea, and land commercial transport companies 
(carriers) to assist CBP with stopping the flow of illicit drugs; to 
deter smugglers from using commercial carriers to smuggle drugs; and to 
provide carriers with the incentive to improve their security and their 
drug smuggling awareness. Participating carriers sign agreements 
stating that the carrier will exercise the highest degree of care and 
diligence in securing their facilities and conveyances, while CBP 
agrees to conduct site surveys, make recommendations, and provide 
training.
    The trafficking of opioids is a global problem, and CBP continues 
to work with our international partners to share information and 
leverage resources to combat this threat. CBP's Office of International 
Affairs (INA) Technical Assistance Division (ITAD) conducts 
International Border Interdiction training, coordinated and funded by 
the Department of State, for various countries world-wide. These 
courses provide instruction on multiple aspects of border security, 
including targeting and risk management, interdiction, smuggling, 
search methodologies, analysis, canine enforcement, and narcotics 
detection identification. Within the last 6 months, INA/ITAD has 
conducted anti-smuggling training in opiate source countries such as 
Panama, Guatemala, Columbia, Ecuador, Peru, Mexico, Indonesia, India, 
Thailand, Afghanistan, Kenya, Cambodia, and the Philippines. CBP also 
provides an Identification of Drugs and Precursor Chemical training 
course to Mexico and other drug source and transit countries to provide 
key insight to foreign Customs Officers on the vast resources of 
precursors available to narcotics producers and traffickers world-wide.
    Through the 21st Century Border Management Initiative, the U.S. 
Government and the government of Mexico are working to strengthen our 
collaborative relationship and efforts to secure and facilitate the 
cross-border flows of people and cargo. We receive information from 
Mexican authorities on a daily basis that helps us better target drug 
smugglers at the border and continue to work closely to expand joint 
efforts to combat illicit drug cultivation, production, and 
trafficking, and sharing more information on smuggling routes and 
networks. This information sharing, facilitated by the CBP attache 
office in Mexico, has allowed for an unprecedented exchange of real-
time information through deployments of personnel between our 
countries. Today, CBP personnel are assigned to Mexico City under the 
Joint Security Program where we exchange alerts on suspicious DTO 
movements through the monitoring of our Advance Passenger Information 
System. This information sharing has also led to numerous seizures and 
cases within Mexico that serve to disrupt the activities of DTOs 
throughout the Western Hemisphere.
                               conclusion
    In coordination with our partners and with the support of Congress 
CBP will continue to refine and enhance the effectiveness of our 
detection and interdiction capabilities to prevent the entry of opioids 
and other illicit drugs into the United States. Chairman Perry, Ranking 
Member Correa, and distinguished Members of the subcommittee, thank you 
for the opportunity to testify today. I look forward to your questions.

    Mr. Perry. Thank you, Director Durst.
    The Chair now recognizes Mr. Sunday for his testimony.

 STATEMENT OF DAVID W. SUNDAY, DISTRICT ATTORNEY, YORK COUNTY, 
                          PENNSYLVANIA

    Mr. Sunday. I talk pretty loud. How is that? Chairman 
Perry, thank you so much for having me today. I look forward to 
not only providing some testimony, but also answering any 
questions you have.
    York County has approximately 434,000 people, citizens in 
York County. We have 22 municipal police departments. Every day 
they work with the Pennsylvania State Police, the DEA, the FBI, 
the ATF, the postal inspectors on occasion, and sometimes 
Secret Service and the IRS. I tell you that because everyone 
here knows how devastating this epidemic is, and what I want to 
talk about is how unbelievably destructive this is with regard 
to local law enforcement, and what we are dealing with on a 
county level.
    That being said, there was a statement--part of Mr. 
Miller's testimony involving fentanyl, and in 2013, zero 
percent of the opioid deaths in York County involved fentanyl. 
However, now in 2018, that number is over 90 percent, and that 
is a very important statistic to know. I wanted to make sure 
that everybody is aware of that, because that can't be more 
telling. The reason that I am saying that it is telling is 
because with regard to the police and local law enforcement, we 
did as much as we could, and we are going to continue to do as 
much as we can. So in 2015, we started a Heroin Task Force. The 
purpose of the Heroin Task Force was to bring into the mix and 
into the--I will say the fight, everybody throughout our 
community. Because obviously, we have limited resources and so 
we have to do everything we can to attack it. Again, this was 
in 2015. We have on our Heroin Task Force medical doctors, we 
have treatment providers, we have parents who have lost their 
loved ones, we have police chiefs, we have EMTs, and we pretty 
much have anyone in the community who is willing to lend a 
helping hand.
    Because we have a total of about 8 police officers working 
in a pure--I will say narcotics law enforcement capacity in a 
county of 434,000 people, we do have to find other ways to do 
everything in our power to stem the death. As a district 
attorney in York County, I get an email every time someone dies 
of a heroin overdose death. At this point, it is about every 
other day. What people need to understand is it is not just the 
felony drug crimes. It is not just the deaths. I will tell you 
that close to 80 percent of all the crime in York County--all 
the crime--is either directly or tangentially related to this 
epidemic and drug abuse, and that includes retail thefts, 
thefts, domestic violence, robberies, aggravated assaults, 
murders, DUIs--over half the DUIs in York County we know now 
are not just alcohol. Over half the DUIs are also either 
alcohol and drug, or just purely drug-related. That is critical 
to understand because we have a tremendous amount of accidents 
in York County that kill people.
    So oftentimes the focus is on the actual drug itself and 
the felony arrest that comes with it, which is obviously an 
absolutely critical component to the long-term solution. That 
being said, it is important to understand the wide-ranging 
devastating effects that go throughout the entire community, 
and one thing I want to state that is very important for 
everyone to understand is this is decimating our local 
resources. The opportunity costs of this epidemic will be 
devastating, and it will be destructive to our community for a 
generation to come.
    Our hospital in York County, the NICU, is full of babies 
that are born addicted to heroin. The Children, Youth, and 
Family Services are absolutely destroyed because they can't 
keep up with the amount of calls they receive to go check on 
homes. We have children who are being raised by their 
grandparents because the--all the parents are in prison. York 
County Prison in particular is ahead of the curve with regard 
to working on our opioid collaborative, so they also are on our 
task force. What we are doing, in addition to doing everything 
possible with regard to law enforcement, we are doing 
everything we can to work with our Federal partners. We are 
also working every day with the Pennsylvania State Police as 
well, and I wanted to make sure that everybody understood that, 
that this epidemic, this all hands on deck could not be more 
accurate. We are working every single day with every single 
partner that will possibly lend a hand, and that is something 
we want to continue to do.
    Along the same lines, we have gone into schools. We found a 
nonprofit that put together a curriculum to go discuss what 
heroin abuse means to junior high school students, and the York 
County District Attorney's Office also has led the Commonwealth 
in prosecuting a case called--a charge called drug delivery 
resulting in death when someone deals drugs that causes someone 
to die. So we are working with our community on the community 
side of this, and we are also doing everything in our power 
with regard to law enforcement, and we look forward to 
continued collaboration.
    I look forward to your questions.
    [The prepared statement of Mr. Sunday follows:]
                 Prepared Statement of David W. Sunday
    Chairman Perry, Ranking Member Correa, and distinguished Members of 
the committee: It is a privilege to appear before you today to discuss 
the threat posed to our community by the opioid epidemic and ways in 
which all levels of government have come together to fight it.
                                overview
    York County is a Class III county which encompasses 911 square 
miles and has a population of 434,972 as of the 2010 census. While the 
county seat of York County, York City, is an urban center with a 
population of 43,859, our county is primarily a rural and agricultural 
locale. Halfway between Philadelphia and Baltimore, York County is 
easily accessible from any direction. Both Interstate 83 and Route 30 
dissect York County and Interstate 81 skirts its western border.
    Like so much of our Nation, York County has suffered greatly from 
the opioid epidemic. This epidemic has been one of continual change. 
Heroin, once primarily accessible in York City, has now fully 
infiltrated our suburban and rural communities. This has been reflected 
in the great multitude of county-wide drug arrests and fatal overdoses. 
Unfortunately, because York is a smaller metropolitan area, heroin 
dealers are able to maximize their profits by selling to our county's 
residents. For the inconvenience of transporting the drug to this 
market, dealers are able to double their profits. Two thousand dollars 
($2,000) worth of heroin in Philadelphia can be sold in York County for 
$4,000 after it has been cut by local dealers.
    Fueled in part by the relative low cost, heroin use and overdoses 
have exploded over the past decade. In 2011, York County reported 47 
fatal drug overdoses with 13 being heroin-related. Within 3 years, 
these numbers spiked to 110 fatal drug overdoses with 62 being heroin-
related. This horrific trend continued and during the year 2016, York 
County suffered 123 fatal drug overdoses with an astounding 116 being 
heroin-related. Overall, between 2011 and 2016 the number of heroin-
based drug overdoses increased nearly ten-fold.
    The rapid explosion of the heroin epidemic in our county has 
resulted in York being the 25th out of 67 Pennsylvania counties for 
drug-related overdose deaths per 100,000 people. However, in raw 
numbers, York ranks 9th out of 67 Pennsylvania counties for drug-
related overdose deaths. Since 2016, the York County District Attorney 
has received notification of 299 suspected overdose deaths from the 
York County Coroner. As of early April 2018, the District Attorney was 
already notified of 40 suspected overdose deaths since the start of the 
year. Sadly, this places York County on track to surpass the 167 
suspected overdose death notifications received throughout 2017. Of the 
391 deaths caused by drug overdoses in York County between 2015 and 
2017, 279 have been caused by an opioid overdose.
                       impact on law enforcement
    While drug overdoses and related deaths are horrific consequences 
of the opioid epidemic, they are not the only consequences. This crisis 
has generated a hefty caseload of secondary offenses which has greatly 
burdened the county's criminal justice system. It is estimated that at 
least 80 percent of all crime in York County is either directly or 
tangentially related to drug abuse.
    York County has fought hard against the opioid epidemic, striving 
to be at the forefront of the battle. In 2014, recognizing that the 
evolving issue required major policy changes, the York County Coroner 
and York County District Attorney united to implement a more global and 
comprehensive response. Prior to 2014, fatal drug overdoses were rarely 
treated as crime scenes. Moreover, while toxicology reports were 
completed, autopsies were not. These conditions presented difficulties 
in prosecuting drug-related deaths.
    York County now conducts an autopsy for every suspected heroin 
overdose. If paraphernalia is discovered at the scene or there are 
suspicious circumstances, the coroner will automatically request that 
an autopsy be conducted. Suspicious circumstances can include track 
marks, the decedent having wet clothing, evidence of the decedent being 
moved, the decedent being found slumped over in a seated position, or 
the decedent was recently clean from drug use. Ultimately, an autopsy 
is able to confirm an overdose death and rule out other possibilities. 
This greatly aides the county in establishing its evidentiary burden 
for prosecuting drug-related death crimes.
    As of May 2014, all 23 police jurisdictions in York County as well 
as the Pennsylvania State Police have transitioned to treating heroin-
related overdoses as crime scenes. Furthermore, phones at the scene are 
collected to aide in the apprehension of the victim's dealer. 
Additionally, the York County Coroner's office is now able to provide 
suspected overdose death notifications to the York County's District 
Attorney's Office. This collaborative process has enabled York County 
to lead the State through the prosecution of 46 counts of Drug Delivery 
Resulting in Death (DDRD) since 2013. This effort has resulted in 4 
guilty by jury trial, 4 pleas to DDRD, 1 plea to criminal conspiracy of 
DDRD, 3 pleas for involuntary manslaughter, 5 pleas for felony drug 
offenses, 1 plea to a misdemeanor drug offense, 1 abatement because of 
Defendant's death, and 27 remaining active cases. Overall, the County 
has achieved a 44 percent success rate in obtaining DDRD convictions 
where a disposition has been reached.
    That being said, this operational pace has begun to take its toll 
on the entire local government infrastructure and in particular our 
police, prosecutors, and first responders. Stated plainly: This 
epidemic is decimating our resources and the opportunity cost will be 
devastating to the health and safety of our community.
    Regardless, York County Law Enforcement prides itself on our 
ability to work together to achieve the common good. This ideal is real 
and it is the reason that we have had such positive results. At any 
given time, there are local, State, and Federal law enforcement 
agencies seamlessly collaborating to achieve a given result. This 
concept is mission-critical and any other approach would be 
unacceptable.
                           community efforts
    In addition to criminal justice initiatives, the York DA's office 
and York Coroner's office formed a community group of volunteers to 
further combat the heroin epidemic. In fact, York was the second county 
in PA to form a community-based Heroin Task Force. This task force has 
dedicated its time to increasing awareness in York County and educating 
our residents on the heroin crisis. By the spring of 2014 our task 
force began its educational outreach in the community's schools and by 
August 2014 the task force developed a community educational 
presentation. Since the education initiative began, our County has 
presented the educational program over 120 times to church groups, 
fire/EMS personnel, 9-1-1 dispatchers, prison staff, school parents, 
students, township managers, police departments, colleges, church youth 
groups, and senior citizen groups.
    Over time, as numbers grew and we identified the need for 
specialization in unique areas, the York Heroin Task Force morphed into 
the York Opioid Collaborative (YOC). The YOC is led by an executive 
director and counts amongst its members: Law Enforcement, Treatment 
Providers, Educators, Clergy, Concerned Citizens, Medical Doctors and 
College Professors, to name a few.
    In addition to our aggressive prosecution of drug dealers and 
educational initiatives, York County has heavily utilized and dispensed 
the life-saving drug Narcan across the county. Similar to the use of 
AED's, Narcan can now be found in many schools and workplaces. This has 
resulted in over 100 saves from April to December 2015. Further, this 
number has spiked to 232 saves in 2016, which was one of the highest 
number of saves across all Pennsylvania counties.
    York has had tremendous success in making the battle against the 
heroin crisis a collaborative effort. Groups such as Not One More, I 
Will Recover, York Harm Reduction Project, and Byrnes Health Education 
Center have created a large unified front in York County. As the county 
moves forward, it would like to leverage this collaborative approach to 
continue to improve access to rehab and detox programs. Recently, the 
treatment center White Deer Run's York location has increased its 
number of detox beds from 7 to 17, in addition to adding a second 
location. York County is also working to provide appropriate and timely 
access to Methadone maintenance treatment programs in the York/Adams 
area. This effort has led to Pyramid increasing their program's 
capacity from 175 people to 420 people, effectively alleviating waiting 
lists.
    Furthermore, York/Adams Health Choices Management unit, in 
conjunction with YADAC, opened a Methadone clinic last summer in 
Hanover through Pinnacle Health. YADAC has also implemented the Jail 
Project at York County Prison in order to ensure that individuals who 
meet intensive treatment recommendations receive expedited managed care 
enrollment and treatment access. Vivitrol is also being utilized in 
this program. The RASE project successfully implemented buprenorphine 
coordination and recovery support services in York and Adams County. 
Finally, the York/Adams County Drug and Alcohol Commission, in 
conjunction with York/Adams Health Choices Management Unit has opened a 
16-bed male halfway house in York County in order to ensure client 
access to a critical level of care that was previously absent in the 
community.
                                closing
    York County's leaders, through necessity, work daily to increase 
the efficacy of the criminal justice system; provide drug education for 
its residents, and support the efforts of the York Opioid 
Collaborative.
    Accordingly, it is critical to understand that the aggressive 
prosecution of drug dealers is only one part of the overarching 
collaborative process. We must employ every weapon in our arsenal if we 
are to turn this crisis around.
    Thank you again for the opportunity to appear before you today.

    Mr. Perry. Well thank you, Mr. DA. We appreciate your 
input.
    Now we will take the testimony from Mr. Singley.

 STATEMENT OF RAYMOND SINGLEY, DIRECTOR, BUREAU OF RECORDS AND 
   IDENTIFICATION, STATE POLICE DEPARTMENT, COMMONWEALTH OF 
                          PENNSYLVANIA

    Mr. Singley. Good afternoon, Chairman Perry and 
Representative Thompson. Thank you for allowing the 
Pennsylvania State Police to participate in this field hearing 
and address the opioid epidemic that the Commonwealth is 
experiencing. Opioid abuse and addiction occurs in every cross-
section of Pennsylvania. No one is immune.
    The PSP began in 1905, with just 228 officers. Today, PSP 
is the 10th-largest police department in America, with an 
enlisted complement of over 4,700 sworn, and a civilian 
complement of about 1,800. We are the primary police agency for 
over 60 percent of the Commonwealth's 1,200 municipalities. We 
patrol 100 percent of the interstate highways and the 
turnpikes. We also oversee a variety of things, such as the 
State crime laboratories, the State radio system, Municipal 
Police Officers Education and Training Commission, liquor 
enforcement, and that is just to name a few. We provide 
specialized support to all law enforcement, such as the 
Pennsylvania Criminal Intelligence Center, or PaCIC, computer 
crime investigations, tactical teams, air supports, K-9, 
polygraphing, Amber alerts, and the list goes on and on.
    PSP is comprised of 16 different troops, and they provide 
police service to their respective areas of responsibility, and 
we have 12 bureaus that support those troops and augment their 
capabilities. The Bureau of Criminal Investigation is just one 
example, and contains both the intelligence division and the 
drug law enforcement division, which I will refer to as DLED. 
There are approximately 100 members that are assigned to the 
DLED, and focus solely on investigating and disrupting 
significant drug trafficking organizations. Efforts include 
both uniform and plainclothes interdictions, long-term 
undercover investigations, financial investigations, asset 
forfeitures, and clandestine laboratory responses.
    While marijuana is an ever-present problem for us, and both 
cocaine and methamphetamine are on the rise, opioids remains 
our greatest concern. There has been a substantial increase in 
the availability of fentanyl and fentanyl-related substances 
over the last few years. The entire Commonwealth has been 
affected, although as you pointed out, some portions of the 
State have been more impacted than others. The synthetic 
opioids are far more dangerous than other drugs, and PSP has 
had to respond to this increased hazard by procuring personal 
protective equipment for all of our members. We have also 
obtained though a Cops Anti-Heroin Task Force grant high-tech 
field drug testing devices, known as TruNarcs, and 
strategically deployed those 15 units across the Commonwealth 
to reduce exposure to these drugs. All members of the 
Pennsylvania State Police have also been trained with and carry 
the opioid overdose reversal drug, naloxone.
    We work closely with the Governor's Unified Coordination 
Group, which is a group of over 15 State agencies that was 
developed through Pennsylvania's Opioid Disaster Declaration in 
January of this year, and again renewed in April. Through the 
joint efforts, PSP has installed 15 prescription drug takeback 
boxes throughout the Commonwealth. Our PSP intelligence 
division was a leading developer of the Overdose Information 
Network, also known as ODIN, which is a database developed to 
collect data on fatal and non-fatal overdoses, naloxone 
administrations, identifiable markings on drug packaging, and 
so on. It provides real-time critical information to aid in 
drug investigations.
    PaCIC works with multiple Federal, State, and local law 
enforcement agencies, and they are part of the Overdose Task 
Force that is comprised of law enforcement, medical 
professionals, coroners, and the Department of Health. PSP also 
works closely with Federal entities as well. Reactive in the 
Liberty Mid-Atlantic HIDTA, the Northeast Counterdrug Training 
Center at Fort Indiantown Gap. We have full-time troopers with 
the FBI, DEA, and we have a great working relationship with 
HSI, Homeland Security.
    We have sent deputized troopers as far away as Alaska to go 
with them to work joint investigations. They are also mentoring 
us with the dark web, the crypto-currency investigations too. 
They provide a lot of training for us. We have 12 troopers that 
are--have Title 19 CFR training and can act under its 
authority. We have a good relationship with U.S. Customs and 
Border Patrol, and they are also a further liaison to help us 
with Federal resources.
    In conclusion, we believe the opioids and the synthetic 
drugs will continue to pose a threat for the foreseeable 
future, and any actions taken to assist in decreasing the 
volume or the attractiveness of these substances, as well as 
removing people from society who deal in this poison will help 
us in our efforts to protect all Pennsylvanians. Thank you for 
the opportunity to provide input, and I look forward to the 
questions.
    [The prepared statement of Mr. Singley follows:]
                 Prepared Statement of Raymond Singley
                             June 19, 2018
    Good afternoon. Thank you for allowing the Pennsylvania State 
Police (PSP) to participate in this field hearing to address the on-
going opioid epidemic that the Commonwealth is experiencing. Opioid 
abuse and addiction occurs in every cross-section of Pennsylvania; 
leaving no one unaffected or immune. The solution to this epidemic is 
complex and requires a multifaceted approach with community, 
Government, and law enforcement working together to educate and treat.
    The PSP began in 1905, with just 228 officers and was the first 
uniformed organization of its kind. Today, the PSP is the 10th largest 
police department in America, with an enlisted complement of 4,719 
members (15 percent of all sworn officers in the Commonwealth) and a 
civilian compliment of 1,791. The PSP is a full-service Police Agency 
whose duties include uniform patrol, crash investigation, criminal 
investigation, and response to all types of incidents.
    The PSP is the primary police agency for 1,200 municipalities, or 
62 percent of the Commonwealth. We patrol 100 percent of the interstate 
and Turnpike highways, 85 percent of the Commonwealth's land area, and 
66 percent of the Commonwealth's highways. Additionally, the PSP 
oversees the State Crime Laboratories, State-wide Radio System, 
Municipal Police Officers' Education and Training Commission, the 
Pennsylvania Access to Criminal History, the Pennsylvania Instant Check 
System, Liquor Control Enforcement, and Megan's Law to name just a few. 
Furthermore, the PSP provides specialized support to all law 
enforcement such as the PA Criminal Intelligence Center (PaCIC), drug 
law, computer crime, tactical teams, air support, K-9, polygraph, Amber 
Alerts, and Missing and Endangered Persons Advisories.
    The PSP is comprised of 16 troops that provide police service to 
their respective areas of responsibility and 12 bureaus that support 
those troops and augment their capabilities. The Bureau of Criminal 
Investigation is just one example and contains the Intelligence 
Division and the Drug Law Enforcement Division (DLED), which are 
germane to this hearing.
    Approximately 100 members are assigned to the DLED and focus solely 
on investigating and disrupting significant drug trafficking 
organizations. Efforts include both uniform and plain clothes 
interdictions, long-term undercover investigations, financial 
investigations, asset forfeitures, and clandestine laboratory response. 
When fully staffed, the DLED is comprised of members who perform Safe 
Highways Initiative through Effective Law Enforcement and Detection 
(SHIELD), clandestine laboratory response, undercover account 
administration, financial investigation, asset forfeiture, and 
interdiction and strike force functions. While those members are 
assigned to a particular function, they frequently assist other details 
within the DLED and Troops throughout the Commonwealth. The DLED takes 
full advantage of cutting-edge training, advanced surveillance and 
tracking tools, wiretaps, and grand juries.
    While marijuana is an ever-present problem, and both cocaine and 
methamphetamine use is on the rise, opioids remain our greatest 
concern. There has been a substantial increase in the availability of 
fentanyl and fentanyl-related substances (FRS) over the last few years. 
Across the Commonwealth, forensic crime laboratories are reporting a 
major increase in fentanyl in drug samples submitted for analysis this 
year. Results from drug chemistry analysis that were conducted by 
State, local, and Federal forensic laboratories reported an approximate 
65 percent increase in fentanyl or fentanyl derivatives. In 2017, the 
PSP, comprising only 15 percent of the Commonwealth's law enforcement, 
seized nearly 70 kilograms of heroin, over 65 kilograms of fentanyl/
FRS, and made over 12,500 drug-related arrests (misdemeanor and felony 
combined).
    The entire Commonwealth has been affected; some portions of the 
State more so than others. This scourge has affected areas beyond our 
boundaries as well, including most of the Appalachia area and many of 
the New England States.
    These synthetic opioids are far more dangerous than other drugs. 
Fentanyl is 50 times more potent than heroin and carfentanil is 
estimated to be 10,000 times more potent. The manner in which these 
drugs can enter the body is of special concern to law enforcement and 
first responders. Beyond traditional ingestion and intravenous 
induction, it can be inhaled and absorbed dermally as well. That makes 
accidental exposure a real danger to narcotics officers, canines, first 
responders, and the public in general who may inadvertently encounter 
the substances. The PSP has responded to this officer safety issue by 
changing the way drugs are handled and by procuring personal protective 
equipment. We have also obtained high-tech drug field testing devices 
known as ``TruNarc'' and strategically deployed the units across the 
Commonwealth to reduce the likelihood of accidental exposure to these 
drugs by law enforcement officers.
    The PSP Clandestine Laboratory Response Team (CLRT) has also seen a 
remarkable spike in fentanyl-related lab call outs. These responses 
range from decontaminating police officers who were exposed to 
suspected fentanyl, through actual fentanyl labs producing counterfeit 
pills. The CLRT responded to one such case in 2015 and one case in 
2016. In 2017, they were activated on ten occasions; 7 related to 
fentanyl and 3 for carfentanil.
    All members have been trained and have carried the opioid overdose 
reversal drug naloxone since April 2015. All marked Patrol Units are 
outfitted with naloxone (1,105 marked cars in fleet), and all members 
assigned to drug work are individually issued kits. Thus far in 2018, 
we have deployed naloxone 56 times resulting in 9 lives lost and 47 
lives being saved. This is a marked increase with year over year 
comparisons in 2017.
    Fentanyl is also being turned into counterfeit pharmaceutical pills 
and sold to unwitting users. This is of special concern since 
Pennsylvania passed legislative measure Act 191, the Achieving Better 
Care by Monitoring All Prescriptions Program (ABC-MAP) in October 2014. 
This Prescription Drug Monitoring Program (PDMP) captures Schedule II-V 
prescribed substances, is searchable by prescribers and pharmacies, and 
requires prescribers to check the PDMP the first time they prescribe an 
opioid or if they suspect a patient is suffering from an opioid 
addiction. While this is a significant step in the right direction in 
our battle against opioid addiction, an unintended consequence is that 
``pill shoppers'' now must obtain their pills in a more underground 
manner. It makes this group of addicted people especially vulnerable to 
counterfeit fentanyl pills.
    Fentanyl can cause a much higher rate of overdose than heroin due 
to its potency; despite its lower usage rates. Drug overdoses resulting 
in death have been well publicized. In 2015, the State recorded 3,383 
drug overdose deaths, that jumped to 4,642 drug-related overdose deaths 
in 2016 (a 37 percent increase), and in 2017, there were more than 
5,000 deaths (data analysis is continuing). This number would make 
Pennsylvania the fourth-highest ranked State in overdose deaths.
    We realize that combatting drugs requires the efforts of many and 
work closely with the Governor's Office Unified Coordination Group 
(approximately 15 State agencies) that was developed through 
Pennsylvania's Opioid Disaster Declaration in January of this year. 
Through joint effort, 65 prescription drug drop boxes were installed at 
stations throughout the Commonwealth. This provides the public with 
access to the boxes 24 hours a day, 7 days a week, 365 days a year; to 
properly dispose of legally prescribed medication. Thus far in 2018, 
over a half ton (1,147 lbs.) were collected. The PSP Intelligence 
Division was the leading developer of the Overdose Information Network 
(ODIN), which is a database developed to collect data on fatal and non-
fatal overdoses, naloxone administrations, and identifiable markings on 
drug packaging that is available to all law enforcement agencies and 
Emergency 
9-1-1 Centers throughout the Commonwealth. The database provides law 
enforcement with real-time critical information needed from an 
enforcement perspective to aid in drug investigations. It also provides 
leadership in law enforcement, Government officials, community leaders, 
and policy makers reliable information in order to make informed 
decisions when combating drug issues that could compromise public 
safety and health. While some of the information is law enforcement-
sensitive, it does provide some critical information to the Department 
of Health, county coroner, and other social service entities to assist 
them in fighting this epidemic as well.
    PaCIC works with multiple Federal, State, and local law enforcement 
agencies on many levels of narcotics related investigations to include 
biographical workups, case assistance with charting, mapping, toll 
analysis, etc. PaCIC, Drug Analysis Unit (DAU) is part of the Overdose 
Task Force that is comprised of law enforcement, medical professionals, 
coroners, PA Department of Drug and Alcohol Programs (DDAP), the 
Department of Health, etc.
    PaCIC, DAU provides presentations on drug trends to law enforcement 
and private-sector agencies. The unit has created pamphlets/brochures 
on the dangers of one-pot methamphetamine labs and drug identification 
awareness for law enforcement and private-sector agencies. PaCIC, 
Critical Infrastructure and Key Resources Unit disseminates the Monthly 
Drug Overdose and Identifiable Marking Analysis Report to public and 
private-sector partners to share information regarding lethal drugs 
contributing to fatal and non-fatal overdoses in their counties. 
Federal, State, and local law enforcement agencies provide data to be 
included in the report in addition to the mandatory reporting by the PA 
State Police.
    PaCIC, DAU members are on the staff for Top Gun and SHIELD 
Programs. The details of the Top Gun Training were provided by Captain 
Raymond S. Singley. Associated to our Fusion Center, the DAU has a 
full-time analyst assigned by the PA National Guard/Counter Drug 
Program. Also associated to the Fusion Center are the DEA, FBI, ATF, 
DHS, State DOC, PA Office of Attorney General, and Harrisburg Bureau of 
Police, all who have a liaison assigned to PaCIC and have requested 
drug-related information or case assistance from PaCIC.
    PaCIC has an Intelligence Liaison Officer program which consists of 
approximately 450 law enforcement partners that provide and receive 
information from PaCIC for investigations to include narcotics related 
investigations.
    The PSP works closely with Federal entities as well, with the 
Commissioner serving on the Executive Board of the Liberty Mid-Atlantic 
High Intensity Drug Trafficking Areas, by providing guidance in budget 
and finance matters, overseeing internal initiative reviews, 
formulation of policies and procedures, and development of the 
intelligence program. Similarly, we are engaged with Northeast 
Counterdrug Training Center at Fort Indiantown Gap. The board of 
directors is comprised of military and senior law enforcement officials 
within the region.
    Through the board and partnerships with anti-drug organizations, 
associations, community coalitions, and emergency responders, training 
gaps are identified, curriculum is developed, and exceptional training 
made more accessible to reduce the availability and use of illicit 
drugs. An example of this is the highly touted ``Top Gun'' school which 
provides drug investigation/prosecution training to students made up of 
municipal officers, Troopers, and prosecutors.
    The PSP works closely with Federal law enforcement too. It is 
essential that we pool our knowledge across the agencies, engage in 
intelligence and resource sharing, and collaborate. Doing so provides 
seamless transitions of investigations to prosecutions, whether at the 
State or Federal level. To that end, the PSP dedicates six troopers 
full-time to the FBI's Joint Terrorism Task Force, and five troopers 
full-time to the Drug Enforcement Administration Task Forces. We 
maintain great working relationships with Homeland Security 
Investigations and have sent deputized troopers as far as Alaska to 
conduct joint investigations with them. As ``dark web'' and ``crypto 
currency'' investigations developed, they provided specialized training 
and equipment to specific troopers and continue to mentor them. Earlier 
this year HSI traveled to our training academy and provided several 
days of crucial training on these areas to many investigators and their 
command staff. The U.S. Customs and Border Protection works closely 
with the PSP as well. Twelve troopers have received Title 19 Code of 
Federal Regulation training and can act under its authority. They too 
provide support to us and liaison for further Federal resources.
    In conclusion, we believe opioids and these synthetic drugs will 
continue to pose a threat for the foreseeable future. Production levels 
appear to be consistent, new forms of fentanyl are emerging, and the 
distribution is becoming more diverse with the ``dark web'' market 
places and cryptocurrencies. Significant resources are being expended 
to combat the havoc that the abuse of these drugs has wreaked upon 
Pennsylvania. Any actions taken to assist in decreasing the volume and 
attractiveness of these substances, as well as remove people from 
society who deal this poison will help us in our efforts to protect all 
Pennsylvanians. Thank you for the opportunity to provide input on this 
very important matter.

    Mr. Perry. Mr. Singley, I--and all the witnesses, we thank 
you for your time and your testimony. We will--each of us will 
spend 5 minutes, we will ask questions, and we will volley back 
and forth since it is G.T. and I, and we have time constraints 
so we probably won't get all our questions answered. We are 
going to do a pretty good--try and do a pretty good job here of 
getting as much as we can in. There is so much to talk about, 
right?
    I am going to start with Special Agent Miller. In your 
testimony, you cite China and Mexico as the main producers and 
transit hubs for synthetic opioids. One of the things we dealt 
with in Washington is when we target one synthetic opioid, they 
just change the formula a little bit and then that is not 
illegal because it is something new, right? That is a challenge 
for us, keeping in our--you know, maintaining our rights but 
also getting after the people that produce this stuff and use 
it and sell it.
    Just out of curiosity, to what extent are synthetic opioids 
entering the United States via the Northern Border with Canada? 
Do we--do you have any indicators or can you inform us at all 
about that? Because I think our perceptions are most of them 
either come in international mail or across the Southern 
Border.
    Mr. Miller. For the most part, we have our Border 
Enforcement Security Task Force teams that are up there that 
are actually collocated and working well with our State and 
local departments, and also with our foreign partners. In 
specifics about amounts coming across, I can't get into the 
specific amount but I would venture to say that small amounts 
would be coming across.
    Mr. Perry. But you would characterize it at this point as 
small amounts?
    Mr. Miller. Yes.
    Mr. Perry. I mean, where is the nut of the issue, Mr. 
Miller? Do you think--is it the Southern Border and----
    Mr. Miller. It is the Southern Border.
    Mr. Perry. It is the Southern Border.
    Mr. Miller. That is what is really damaging areas. There's 
the boats coming in from Mexico, and then the amounts coming in 
in small doses but high potency coming in through the mail 
that's from China. That is what is really getting us.
    Mr. Perry. Are there any countries that you expect to 
become major producers in the next 5 years, other than the 
countries already enumerated? Do you see a trend? Are we going 
to start producing it locally? Do you see that trend at all, 
or----
    Mr. Miller. Right now, I'm sorry, I don't see that.
    Mr. Perry. OK, that is great.
    How does HSI coordinate with State and local law 
enforcement to conduct secure deliveries of packages that 
contain opioids? I don't want you to give any intelligence 
away, but you know, what factors such as prosecutorial 
constraints may impact a Federal, State, or local law 
enforcement agency from participating in a secure delivery? I 
ask that because people like G.T. and I, we want to enable you 
to be able to do as much as you can. If there is some hindrance 
regarding you and our DA, State Police, et cetera, we want to 
know what that is so we can try and help solve the problem.
    Mr. Miller. So, so far I can kind-of give you the rundown 
from seizure from JFK International Airport, the international 
mail facility, you know. CBP will make a seizure, will work 
with our HSI office in JFK. JFK will alert us to say there is a 
package destined for Pennsylvania, for some part of 
Pennsylvania. We will most likely go meet them halfway so we 
can have a hand-off of the package itself, and at that point we 
would hook up with PSP and have it analyzed or have their crime 
guys take a look at it as well. But we find that having PSP 
working with us is easier for State prosecution, and if it 
develops into anything more, we will go Federally.
    Mr. Perry. Thank you. Let me see here. I think this will be 
for Ms. Durst.
    CBP reports that in 2013 it seized approximately 2 pounds 
of illicit fentanyl. This is in 2013. So far this year, you 
folks have seized approximately 1,218 pounds. Can you just let 
us know from your perspective what you think is driving--I 
mean, that is a remarkable increase. What is driving that?
    Ms. Durst. So first of all, we are able to do presumptive 
testing now at our international mail facilities and at the 
express consignment facilities.
    Mr. Perry. So can you explain presumptive testing so we all 
know?
    Ms. Durst. Yes, sir. Presumptive testing means that right 
there on-site in our facilities, we are able to make a 
determination as to what the item that we have encountered is.
    As you have heard from SAC Miller, we are receiving at the 
international mail facilities small quantities of illicit 
fentanyl and fentanyl analogs. You know, they obviously don't 
come with a tag on them, and when we have technology that has 
been supported by the Congress to right there in our facility 
make an immediate determination as to what that item is, and 
then pass that onto Homeland Security Investigations, that is 
something that didn't exist in 2013. So with the onset of the 
interdict DAC we were able to obtain these presumptive testing 
mechanisms, that assists us at the ports of entry.
    Mr. Perry. I don't want to put any words in your mouth, but 
I am just trying to make sure I understand and make sure 
everybody in the hearing understands. I get the perception that 
the timing of these things is as important as anything else in 
pursuing who the perpetrators are and where it is going, and so 
on. So that is a tool that you almost have to have or it would 
slow you down to the point where they would get it somewhere 
else. They would be suspect because it didn't show up or 
whatever. That is a tool that has probably--and like I said, I 
don't want to put words in your mouth, but I want you to 
characterize maybe if you could how--if that is important and 
how important it is.
    Ms. Durst. It is absolutely critical to have the 
presumptive testing devices on-site at our ports of entry. 
Really, it does get down into the timing. The transnational 
criminal organizations know how they have shipped their goods 
and they know where they are going and approximately when they 
are going to arrive. If we can intercept and then presumptively 
test and then turn the item over to our law enforcement 
partners in HSI to then move forward with either controlled 
delivery and then ultimately possible prosecution, it really 
does bode well, I think, for the entire governmental community 
and the American people.
    Mr. Perry. Excellent, thank you.
    G.T.
    Mr. Glenn Thompson. Chairman, thank you, and thank you 
for--each of you for your service and for making such a 
difference on, you know, keeping us safe. Safety and security 
and really trying to address this public health crisis that we 
have--District Attorney Sunday, thank you. Thank you for your 
service. You are in the trenches, you and your colleagues, our 
district attorneys in Pennsylvania are on the front lines, and 
you are surrounded by great people and great resources to draw 
upon. I had an opportunity to speak about one of your 
colleagues out in Armstrong County and I know, you know, the 
district attorneys really can make a difference in terms of 
your focus and your commitment. I want to thank you for what 
you do for York County.
    This morning, we did--as the Chairman said, we had an 
opportunity to go out to, you know, PaCIC and what a great 
opportunity that was to learn about what our Pennsylvania State 
Police are doing. Helping them to be effective and helping to 
be a resource, and such collaboration.
    So my question is how does your--the York County DA's 
office, your office benefit from working with the Pennsylvania 
Criminal Intelligence Center, and what type of information does 
PaCIC have that your office would not have access to without 
that partnership?
    Mr. Sunday. OK. Thank you, sir. There are two points I want 
to make in answering that question. The first one is local DA's 
office--county DA's offices more now than ever have become 
reliant upon expert areas within their own county versus where 
years ago there would be certain experts, for example, at the 
Pennsylvania State Police, and that is because of the 
overwhelming and changing environment with regard to crime. So 
what I mean by that is PaCIC is a tool that our drug task force 
uses every single day, literally every single day. One of the 
things that has allowed us to leverage that asset very 
successfully has been I entered into a Memorandum of 
Understanding with the Pennsylvania State Police that allowed a 
county intel analyst to be trained by PaCIC and to work at 
PaCIC 1 or 2 days a week. So that gave us the ability to have 
someone who knows everybody in York County, knows all the 
police departments in York County, is familiar and works with 
our drug task forces that physically 1 or 2 days a week is 
actually located in the PaCIC office. He sits beside--you know, 
I have to be careful. He sits beside the other people that work 
up there as well, and they share information on a daily basis. 
He has the proper clearances, and so that actually speeds up 
the flow of information to us.
    PaCIC provides a lot of different types of information. For 
us on the ground level, on the day-to-day fight, the 
information that is most helpful from PaCIC is the assistance 
in identifying individuals, identifying vehicles, who may be 
driving a certain vehicle, who someone's associates might be, 
and that type of information is absolutely critical to 
successful drug prosecutions on the street level. That is 
something, again, that is used every single day, every day.
    Mr. Glenn Thompson. Thank you for what you do, and all your 
colleagues and district attorneys across--Major Singley, thank 
you for your service. Congratulations on your recent promotion.
    You know, we know we are talking about data and data is 
essential for combatting the opioid epidemic as it can identify 
the trends and allow resources to be deployed most effectively, 
especially with this real-time data, it seems to me as things 
change, you know, back before where we are at today with ODIN, 
I mean, there was a delay and a delay unfortunately that really 
impacted effectiveness.
    So what efforts are the Pennsylvania State Police taking to 
harness opioid-related data, and how does the use of this data 
impact the Pennsylvania State Police resources?
    Mr. Singley. Well the ODIN network itself, sir, is 
basically taking a paper system and making it electronic. So 
what was unusable data in the past becomes now usable. It helps 
us understand, I hate to say, what a bad batch of fentanyl or 
bad batch would come through, and you start having numerous 
overdoses. That is going to show up through ODIN, and then our 
partnerships, we can notify EMS, maybe start--maybe even put 
out a message saying that we have a bad batch of drugs out 
there, that if hopefully people wouldn't take it.
    It helps us--we can pull resources from--fairly quickly, so 
if we need to pull them off certain investigations and put them 
on others, it helps us. If we see long-term trends, again, 
working with our Federal partners we can pass along that 
information and hopefully maybe shut down the drugs that are 
actually coming into the country or from certain areas of the 
country.
    Mr. Glenn Thompson. Very good. Thank you. Mr. Chairman.
    Mr. Perry. So just continuing on with the conversation, I 
hate to, you know, have an informal conversation here. As much 
as I hate to bring it up, it is just something that occurred to 
me. Maybe we ought to discuss the impact, especially for local 
folks, Pennsylvania State Police I consider some local as you 
listed the statistics of how much you cover Pennsylvania and DA 
Sunday, you know, you are working in a county, just like G.T. 
said, in the trenches.
    How has this impacted budgets, your budget? We have been in 
the war on drugs for a long time, so this is not a drug that--
at least for heroin, it has been around for a long time, but of 
course the spike in usage is different. But fentanyl is new. Is 
there--has this made it markedly different and has it strained 
your budgets, particularly because of the opioid portion of the 
epidemic? Have you had to do things differently than you have 
in the past that come down to cost at some point?
    Mr. Sunday. I mean, I can speak--and I am going to tailor 
this answer specifically to the district attorney's office 
versus other county entities. What I can tell you is this 
epidemic has put us in a position where, first of all, we do 
not have the resources to do this the right way. Because of 
that, there is an opportunity cost to many, many other types of 
crimes and other programs that are not getting the attention 
they should receive. I am not saying that because people aren't 
doing their jobs. It has nothing to do with that.
    I spoke with the detective today on my way up here and I 
said one last thing. What do you want me to tell the 
Congressman if he asks me, and he said tell him every day we 
are trying to drink water out of a fire hose. This is from a 
30-year law enforcement veteran who knows multiple people on 
this panel, and he said every day I am drinking water out of a 
fire hose.
    So specifically what that means is in my office, we have 
had to--I created a grant writing position, which just came 
into effect like 4 months ago. So we are trying to find every 
grant humanly possible because what people need to understand 
is in the Commonwealth and in York County--so we have 22 
municipal police departments. Okay I apologize if I am talking 
very fast, but I am staring at the clock ticking, so----
    Mr. Perry. It is all good.
    Mr. Sunday. So we have 22 municipal police departments, and 
those police departments are primarily driven by answering 
9-1-1 calls, OK, and so what that means is they--it is very 
difficult for smaller police departments to dedicate one person 
solely to investigating drug crime. So, the way we are able to 
do that is leveraging our relationships with other people, and 
that affects our budget because with the DA's office has to 
take people and make them special county detectives and give 
them the ability to have that--to have the entire 
jurisdiction----
    Mr. Perry. Relationship.
    Mr. Sunday [continuing]. Of York County. So that is very 
stressing to us. There is next to no money in the county budget 
for it. We pay for a portion of it through the proceeds of drug 
seizures, and we don't have people that are--they are basically 
borrowed by the DA's office to do this type of work for a time 
period, and then they go back to their department.
    OK, and so that being said, we need full-time drug 
investigators. We don't have it. The crime drug delivery 
resulting in death that we now prosecute, the only way that we 
were able to prosecute that, about 4 years ago what we did was 
we started to autopsy----
    Mr. Perry. Every single one.
    Mr. Sunday [continuing]. Every potential drug or opioid-
related overdose death. That is a tremendous financial impact 
on the county budget, on the coroner's budget. In addition to 
that, in York County as of 2015, we started treating every 
single drug overdose scene as a crime scene, like we would any 
other homicide case. So because of that, we are asking so much 
more from law enforcement officers and that is time that they 
are not spending on other things. That is overtime that has to 
be paid. That is the cost of prosecution that comes with this. 
Right now we have over 125 pending investigations for drug 
delivery resulting in death cases, which is very difficult and 
it is very overwhelming.
    So that being said, you know, our budgets are completely 
blasted by this, and it is going to cause problems for years 
and years, if not decades, to come.
    Mr. Perry. Well that is not encouraging, but we came to get 
the information, right, so that is what we are doing here. So I 
appreciate your candor.
    Mr. Miller, this--and anybody can chime in here, but--and 
we can continue the conversation because this is, I think, 
going to require more than the time available. But would you 
talk about the dark web and how that plays into this, and kind-
of how maybe people that aren't involved in the drug culture, 
like can they recognize anything? You think there are plenty of 
parents out there who their kids get involved and they might 
not know they are getting involved. Are there signs they could 
see, or you know, are there things to point to to be aware of? 
What can you tell us about the dark web and how it is 
included--well, my time is up, but if you keep that----
    Mr. Glenn Thompson. You are the Chairman.
    Mr. Perry. He will--G.T. will indulge me, so if you--yes.
    Mr. Miller. So we do our best to give out information to 
kind-of educate the public about internet, dark web, as well as 
the crimes that exist on there. Like around this time when kids 
are out of school, we kind of put out a PSA or talk to the 
media about getting a message out to the parents about, you 
know, your kids are out of school, you know, be kind-of aware 
of what they are doing on the internet and who they are talking 
to or chatting with. So that is one aspect.
    But with regard to the dark net, I mean, from our agency 
perspective, you know, we are tracking the packages that are 
coming in from JFK, the international mail facilities, and 95 
percent of what we receive in the Pennsylvania area is coming 
out of China and out of JFK. So we get the package, we work the 
case, and the delivery to the suspect, we are able to, you 
know, get them in their confidence and have them work with us 
as far as, OK, you are going to help yourself and help law 
enforcement, kind-of tell us, OK, how did you acquire this? 
That is kind-of the key to figuring out where the other--the 
specific vendors are on the dark net is talking to the suspects 
that we arrest.
    Mr. Perry. How do you even know--like I got to be truthful. 
I don't know--I don't even know how to get to the dark net. How 
does something--does it look different? Is the address--how 
do--how will parents know? How can you know?
    Mr. Miller. That is the thing. I am not as technically 
savvy, but I know that there is a program you use, a TOR--that 
you use to get into the dark net, and it is not query-able like 
Google, so you specifically have to know how to navigate that. 
You know, kids these days are really very resilient, and 
they've really got a lot of knowledge.
    I know from my knowledge that I have given a lot of talks 
to schools at career day, and just throw it out to the kids, 
you know, high school, do you know about the dark net, and a 
small percentage raise their hand. I say well tell me a little 
bit more about the dark net, and they talk about ``yeah you go 
through TOR, you know--URLs to kind-of get to where you need to 
go. You can buy anything on there.'' I'm like, ``Wow.'' So I 
mean it's, you know, the kids these days know. They are pretty 
smart, but definitely it is a totally different way to get into 
it. It is not just dialing up and going into Google. I mean, 
you have to have a specific program to get into that.
    Mr. Perry. Anybody else familiar?
    All right. It seems like something probably Congress needs 
to become more informed on from a policy standpoint, but I 
yield to G.T.
    Mr. Glenn Thompson. Thank you, Chairman. Thank you.
    Well Director Durst, I wanted to--I mean, exactly how does 
the Baltimore Field Office coordinate with the Pennsylvania 
Criminal Intelligence Infusion--Fusion Centers?
    Ms. Durst. So we have a DHS representative that is embedded 
within the Fusion Center here in Pennsylvania, and we work with 
that individual. That person prepares intelligence reports and 
bulletins and coordinates across really the full scope of 
Federal, State, and local law enforcement entities here within 
Pennsylvania. That individual really is a DHS direct link into 
the State law enforcement intelligence community, and with that 
comes reciprocity. That means that the State and all of the 
State's resources have at their fingertips the Federal 
resources.
    So we share information. We collaborate, you know, when 
there are intel alerts and bulletins, they are distributed at 
the Federal level and/or the State level. It really is 
information sharing.
    Mr. Glenn Thompson. Yes, it seems like--my impression, it 
has been amazing where one of the criticisms we had on 9/11 was 
sort-of the silos that we--everybody operated in. I mean, we 
had great qualified people with good information, but there 
were these silos. There was--the collaboration was limited, I 
guess, at best. But today, I mean, just today the picture that 
you all are painting is one of really effective collaboration. 
I am impressed the DA's office has somebody embedded for a 
couple days a week here at PaCIC and just seems that that is 
incredible. We have learned our lessons maybe the hard way that 
it is incredibly important strategy for effectiveness when it 
comes to law enforcement across the board, sharing resources, 
collaborating, sharing information, and you have all painted a 
pretty impressive picture of that.
    I have got your testimony, and it is timely. You mentioned 
our K-9 friends that we employ, our K-9 officers, I consider 
them. We just lost a K-9 officer up in Warren County to just a 
really sad training incident, and he was laid to rest with 
honors recently. You had made mention of the measures that are 
taken, because these dogs are being exposed to--as they perform 
their duties--they use that all powerful nose to be able to 
sniff out things. But if you had made reference that you--you 
know, part of your procedures is to have resources to be able 
to protect these K-9s and keep them well?
    Ms. Durst. Yes, sir. So all of our K-9 handlers carry 
naloxone, and they have an injectable version of naloxone so 
that if our K-9s do encounter fentanyl or fentanyl analog, we 
are able to provide that immediate care to our K-9.
    You know, we have been carrying naloxone. All of our K-9 
handlers have been carrying that for over 20 years. It really 
is something that we are very concerned about. Those are our 
partners, and they work side-by-side us to help secure our 
country. You know, the K-9 teams and the carriage of the 
naloxone really is critical, but I also want to point out that 
in the international mail environment, one of the things that 
goes to the safety of the K-9s is the manner in which the 
fentanyl, fentanyl analogs, and opioids in general are 
packaged. As we discussed earlier, coming through the 
international mail facilities, the narcotics are tightly 
concealed in an effort to evade detection. So that also bodes 
well for our K-9s. So what they are smelling is a residual odor 
and not actually getting into the substance. Our K-9s are also 
trained to passively alert, meaning that they don't tear into 
the goods. They will sit down and passively alert, which is 
certainly something that bodes well for their health and well-
being.
    Mr. Glenn Thompson. Absolutely. Special Agent Miller, 
speaking of ports of entry, I guess, I wanted to just ask 
briefly about how the Homeland Security Investigations agents 
are working at the Border Enforcement Security Task Force are 
best at the Philadelphia International Airport, and how do you 
coordinate with State and local law enforcement agencies to 
investigate opioid smuggling?
    Mr. Miller. So we have actually two Border Enforcement 
Security Task Forces, one at the airport and one at the 
seaport, and our primary partner is CBP. We can't really get 
our job done without Customs and Border Protection. They know 
the seaport, they know the airport, the international area, and 
so it would take a holistic look at who are the players in the 
area. Philly PD is basically the security of the airport, and 
also with TSA and even the surrounding local townships in that 
area. So we are not only looking at what is going on at the 
airport, but also we are looking at surrounding townships, and 
even the hotels, because sometimes drug dealers or narcotics 
smugglers are utilizing the local hotels to bring in and drop 
off loads or exchange money, so we have, you know, connections 
with the hotels as well. So that is working with the hotels, 
the airport, and in collaboration with the State and local as 
well, and again, the seaport and the airport are primary 
partners and CBP.
    Mr. Glenn Thompson. Thank you. Thanks, Chairman.
    Mr. Perry. Mr. Singley, you mentioned something I hadn't 
really thought about, but by--procure, what have you, 
additional protective--personal protective equipment for your 
officers who are dealing with it, because--and you know, it was 
kind-of new to me, but a person that comes into contact with 
fentanyl can become immediately incapacitated, I guess. That is 
my understanding, right? So I am just wondering in that vein, 
you know, because fentanyl is put into so much of the heroin, 
and not only is the user not aware of it, but maybe people 
around the user are not aware of it. Are, for lack of a better 
phrase, civilians or other people who just aren't involved in 
the drug situation and the using situation, are they at 
jeopardy, are they at risk? Is there anything being done to 
inform them of, you got to be--if you touch this stuff, you 
could be in the same problem as your loved one or the person 
that you know?
    Mr. Singley. Yes, it is not quite immediate.
    Mr. Perry. OK.
    Mr. Singley. It wouldn't be, if you touch it, you drop. It 
would, through transdermal, it may take 15, 20 minutes to start 
feeling the effects. If you know you have it on yourself, you 
certainly could wash it off as a person, but I don't believe 
the situation you are describing the person is going to know, 
so if they have a loved one who is using and they come in 
contact with it, certainly it could impact them.
    We are doing everything we can to educate----
    Mr. Perry. Sure.
    Mr. Singley [continuing]. People and I think we discussed 
here a little bit, I don't know what else we do to get the 
education out.
    Mr. Perry. What is the answer for somebody that comes into 
contact on an ancillary basis? Is it naloxone for them as well? 
Is that the answer?
    Mr. Singley. Yes.
    Mr. Perry. OK.
    Mr. Singley. That is just a temporary fix.
    Mr. Perry. Sure.
    Mr. Singley. That's not, you know, hopefully follow up and 
go to, you know, the emergency room or something like that. But 
yes--and every law enforcement officer I know, every EMS, 
everybody carries naloxone.
    Mr. Perry. Right.
    Mr. Singley. Even off-duty, in my backpack I have a 
tourniquet and naloxone.
    Mr. Perry. Right, and we know now that for people that are 
receiving prescribed opiates, they have access to naloxone, and 
so I, you know, with this thing seemingly spiraling further and 
further, it is just, I think, important for people to know if, 
you know, if you have somebody that is using, however they got 
there, you potentially are in jeopardy too and to be prepared 
to use it on yourself if you have to. It is just something to 
think about.
    Mr. Sunday, York County DA's office has the most drug 
delivery resulting in death charges in the State based on your 
program. I am just wondering, do you think that is--using the 
charges deters future drug dealers? Do you think that they 
think about those things? Is that a consideration for them? Do 
you think it is a deterrent?
    Mr. Sunday. Well, I think--well first of all--thank you. A 
few different points I want to make to answer that question, 
and the first one is with regard to it being a deterrent. I 
would say that it is too early to tell if it really is a 
deterrent. What I can tell you is based on our investigations, 
without going into great detail, I know that there are street-
level dealers and mid- to lower-level dealers who are cognizant 
of, believe it or not, the--what they are doing and the 
knowledge that they may want to make sure that it is not 
something that kills an individual. So we have had that through 
investigations come out. Is that a deterrent in a material way? 
I would say most likely not; however, drug delivery resulting 
in death as a charge is something that is one of a thousand 
arrows in the quiver that law enforcement and everyone in the 
community has to use to solve this problem.
    With that being said, it is important to remember that 
for--we have over 10,000 criminal cases a year in York County, 
and of those 10,000 cases, I would say on average maybe only 9 
or 10 are the charge of drug delivery resulting in death. Over 
the last 4 years, we have had 4 jury trials. They have all been 
convictions. We have had 4 people plead guilty to drug delivery 
resulting in death. We have had conspiracy to drug delivery 
resulting in death, involuntary manslaughter, third-degree 
murder conviction for this, and a point I want to make very 
quickly is, you know, necessity is the mother of invention, and 
through this awful, terrible crisis that we are in, there has 
been some positive points that I want to make. One of the main 
positive points I am going to say is the collaboration and the 
daily work that our local law enforcement does with our Federal 
partners all throughout this table and all throughout the 
country. I mean, they work together almost like they are 
coworkers in different buildings, and so that is something that 
is very positive that has come out of this that hopefully will 
certainly continue.
    Mr. Perry. Pennsylvania--thank you. Pennsylvania enacted a 
Good Samaritan law which provides immunity to a person who 
calls 9-1-1 on behalf of someone suspected of overdosing. Do 
you think that has--does that make a difference? Do you think 
that--I would like your thoughts on that.
    Mr. Sunday. So that is a very controversial topic, and I am 
glad you asked that question because when we first--so when the 
Good Samaritan Act was first passed, the Good Samaritan law 
does not mandate--it does two things. No. 1, it allows for 
limited immunity for some of the calls to 9-1-1, but it also 
allows for police officers to carry naloxone. So York County 
jumped right on board. Delaware County was first. They had 
everybody with naloxone. We were shortly right after that, and 
so all the police officers carry naloxone.
    Now with regard to the immunity part of this, the whole 
goal at that point--you have to remember 4 or 5 years ago, some 
people threw the red flag and they were saying this crisis is 
coming. It is coming. It is coming. So the legislature, I 
believe, rightly acted to create this immunity because I have 
personally had cases--we had a case in York County where 
someone was dying of a heroin overdose and the people with him 
threw him in a snowbank and let him die in a snowbank, because 
they didn't want to call 9-1-1 because they knew they were 
going to get charged. So, as a result of the Good Samaritan 
Act, there are many, many more calls to emergency medical 
services for people that are overdosing.
    The issue, however--and all it is tangentially--I would say 
well more directly related to that is the use of naloxone and 
whether or not those two things combined has made a difference. 
So without taking your potential thunder on another question, 
the Good Samaritan Act itself, in my opinion, certainly has 
saved lives without question, because many, many more people 
call 9-1-1. You can't save or fix dead, and so saving a life is 
Step 1. So that certainly, in my opinion, has achieved--has 
helped to achieve that, because York County law enforcement 
have saved over 400 lives with naloxone in 3 years, so----
    Mr. Perry. Yes. Well, I appreciate your candor and I think 
the people who care for those lives, family members, friends, 
or whatever, they are appreciative of the action as well 
because like you said, at least there is another opportunity to 
try and get on the straight and narrow and not be afflicted 
with it, but you lose that opportunity once the person is gone. 
So I know it is controversial, but you can see the tangible 
effect for family members and loved ones, and it is important, 
so--G.T.?
    Mr. Glenn Thompson. One final question from me just broadly 
to everyone, we--you know, I am so appreciative of the fact 
that we have gotten to a point with the--ODIN, the electronic 
data to be able to take what was overwhelming individual data 
points and not really benefit from it, and with this new 
system, it seems like we have moved beyond, you know, perhaps 
making decisions, tactical decisions, preemptive decisions 
based on gut instinct, experience, all good things, anecdotal 
information.
    So it was interesting at PaCIC the chance to see the heat 
maps of--and it was just PSP, obviously, but I was just 
wondering based on the data we have so far--and I know that 
that is relatively new, but impressive--any thoughts in terms 
of what the root causes of some of those more intense areas 
are? Is it travel corridors, is it--you know, this problem cuts 
across all socioeconomic classes, obviously all levels of 
education or lack of education. It seems like it is--doesn't 
discriminate in terms of how it impacts all kinds of folks. I 
was just wondering have we been able to begin to identify any 
of the root causes where we have the--certainly some of the 
most intensive density of occurrence?
    Mr. Sunday. I mean, I would say it is supply and demand. In 
York County, if you look at the drug over---the heroin or 
opioid-related deaths in York County and you would put a heat 
map over York County, you would see that about 40 percent are 
within the city of York itself, which is in the very middle of 
the county, and then a few other areas, maybe 20 percent here, 
15 percent there, and all of the areas where the majority of 
the deaths are, are the areas where there is more heroin 
available. So--and although that sounds like a simplistic 
answer, very simply, you know, the areas where the most deaths 
are the areas where the most heroin is.
    Mr. Glenn Thompson. We started to see--and maybe not yet, 
but the question is why are more people seeking it there? What 
is the root cause that causes that behavior? Maybe we are not 
there yet, but I think with this data that we are using today--
we have to get to the root cause of our problem and you know, 
the why is the decision made to be able to seek that, and once 
the market--then market forces kick in. The more people seek 
it, the more the market will provide.
    Mr. Sunday. You have to kind-of look back in time because, 
for example, York City, like a lot of other third-class cities 
in the Commonwealth, have had a similar issue with regard to 
becoming basically like--and this happened over the last decade 
where they have become almost like treatment meccas.
    Mr. Glenn Thompson. Yes.
    Mr. Sunday. What I mean by that is there are several living 
homes that have popped up throughout a lot of these third-class 
cities. So there are over 100 in the city of York, and of those 
100--I mean, they are not regulated. That has happened over the 
last decade, and so people have gone on-line to find a place to 
go recover. They see York, Pennsylvania. They will come to a 
home there, and again, they are not regulated. They are located 
right in the same area where a lot of the drug dealers are, and 
so it is sort-of a self-fulfilling prophecy because you have 
people going to get treatment where the drug dealers are, and 
that in itself has created the catalyst through which those 
market forces have occurred.
    Mr. Glenn Thompson. I have watched that evolution. I 
practice health care in Lycoming County, Williamsport, and that 
had its roots in, you know, what was--a decision was made to 
really, as you described, make it be a mecca for treatment. 
Unfortunately, not all treatment is effective.
    Mr. Sunday. Exactly.
    Mr. Glenn Thompson. Yes, and it had a lot of consequences 
as the decades went on.
    Thank you, Chairman. I yield back.
    Mr. Perry. Yes, sir. I am going to get one last one in as 
well in the interest of time, but you know, each of you have a 
unique perspective about what maybe some of the whole-of-
community and whole-of-Government solutions could be, and it is 
not going to end overnight, but I just want--you know, from 
your position, what efforts do you think would be most 
effective to end this or to seriously curb it? How should 
such--these efforts be measured, you know, if you have a 
thought on that? You know, like I said, just kind-of pick your 
brains a little bit. I mean, you are on the front lines, each 
of you, from your own perspective, so while things that are 
important to the DA might be wholly different than yours, you 
are worried about a huge influx of packages both on the, you 
know on the--I forget how you characterized those contract 
carriers as opposed to the mail, but each of you have a 
different perspective. Can you impart to us what you think 
would be--because we, you know, whether it is prescribing, 
whether it is availability, whether as G.T. says--and I happen 
to agree with him--whether it is just the addictive--the nature 
of addictions. If we could solve that, this is just the flavor 
of the day, right, but if we could solve that--but each of your 
perspectives I think add to the equation here of a solution, 
and I would like to just get your final thoughts on that.
    Mr. Miller. Looking at--I really value the work 
relationship we have with the Allegheny County laboratory. It 
seems that not only do they help us in our--turning over our--
the drug analyses, but also with educating us on what the 
analogs are that they are finding day to day. Also, they are 
coordinated across the country to kind of educate us on what 
they are seeing in different areas of the country and what is 
popping up that is new.
    So you know, I think one aspect of that is continuing that 
work relationship with them, and another aspect is, you know, 
regionally we kind-of get together within a month HSI SACs, 
talk about JFK International mail facility. One key there is 
that the cases that we work, the information that we glean, 
intel that we gather needs to go back up there to, for the help 
of the targeting of these packages, and that is another key 
that kind of helps them to tie up the flowing into our area. So 
those are the two key aspects.
    Mr. Perry. Thank you. Ms. Durst.
    Ms. Durst. Yes, sir, thank you. So first of all, again, I 
just wanted to say that CBP appreciates the instrumental 
support of Congress on the interdict and stop acts. Those 
things have been absolutely critical. Thank you very much on 
those. Know that we are going to continue--as you have heard 
from SAC Miller, we will absolutely continue to work with our 
partners in the Federal, State, and local arena. We have found 
that the best way for us to interdict fentanyl and--illicit 
fentanyl and fentanyl analogs is those three elements of our K-
9 assets, our X-ray technology, and the advanced targeting. In 
those arenas, it really does become very important, as you also 
heard from SAC Miller, that advanced information we can really 
do tremendous amounts of law enforcement analysis and study on 
it prior to the packages arriving at the United States.
    What we can also do is upon interdiction, we can then share 
that information with our law enforcement partners through our 
National Targeting Center and through these regionally 
established relationships, such as the Fusion Center here in 
Pennsylvania, to ensure that law enforcement entities at all 
levels of government have the information that they need in 
order to successfully combat this opioid epidemic.
    Mr. Perry. We had a conversation earlier. Tell me again the 
volume of--by weight or packages that you deal with annually?
    Ms. Durst. It is 1.7 million per day approximately. Last 
year we saw--and those are packages with goods in them. That 
excludes letter class mail. Last year, we saw 501 million 
packages with goods.
    Mr. Perry. How many K-9 officers do you have, ma'am?
    Ms. Durst. So at the express consignment courier facility 
in Philadelphia, we receive 3.8 million parcels annually, and 
we have three K-9 assets at that facility.
    Mr. Perry. So 3.8 million parcels and three K-9 officers, 
and that has been a sticking point for the Committee and the 
Department of Homeland Security for some time. We feel that 
they need to have more resources in that regard because they 
are very effective. So thank you for your testimony.
    Mr. District Attorney.
    Mr. Sunday. First of all, I want to thank you sincerely for 
coming here and for having this hearing. This is obviously 
very, very important, and there are just a few final, brief 
notes here.
    The first one is we currently--if you look at this 
epidemic, we have people who are currently in the throes of 
addiction. Those individuals who are in the throes of 
addiction, we have to do everything we can to mitigate the 
addiction they are going through. All the individuals who have 
not become addicted, we have to do everything we can to keep 
that from happening. Both of those parts of this equation are 
completely contingent, in some ways, on the flow of drugs in 
our communities.
    So with that being said, you know, we local DAs, we are 
sort-of at the bottom of the valley and everything sort-of 
comes down into the valley, and we find ways to deal with it to 
keep our heads above water, you know, to work with everyone we 
can to come up with ideas and--but for that to ever start to 
work, the flow down the valley has to slow down. So I would 
very simply ask you to provide Mr. Miller and Ms. Durst 
everything they need to do their job to help turn the hose 
down, for lack of a better term, so that local authorities can 
even catch their breath to be able to do the things that we 
should be doing for our communities.
    So that is it.
    Mr. Perry. Thank you. I think I got it. I appreciate it.
    Mr. Singley.
    Mr. Singley. I like what Representative Thompson said at 
the beginning about this is all hands on deck.
    I see a lot of times people put efforts or money into the 
community or into prevention or treatment or law enforcement, 
and the fact is we are all together. You know, speaking from a 
trooper's point of view, we are from the community. We are just 
people serving people, and you know, we took off 34 million or 
more dosage units last year. I think that would be 
preventative. We helped walk people into treatment, you know, 
and of course if all else fails, you know, we are there to keep 
law and order and arrest people.
    But I think when we concentrate on, you know, we can't 
arrest our way out of this. Well, we can't prevent our way out 
of this. It is sort-of--it separates us as opposed to putting 
us together, and I think we--as we are sitting here and as you 
are here with us today--and thank you--we need to come 
together.
    Mr. Perry. We are mindful that the people that are addicted 
don't--they don't want to be addicted, and you said it well, 
they've, you know, they got people that are and people that are 
using that may be, and we got to do all we can to save these 
from being and those from getting. We appreciate more than you 
know your input today, and your willingness to leave your 
posts, so to speak, and come up here and provide the 
information to us. It is important as policy makers that we are 
informed.
    You know, I--from my standpoint, I learned a lot, but I 
still have some outstanding questions. I think this dark net 
thing is something that--and as a parent, I think we have to 
figure a way to be informed so we know what kids are doing, and 
they are getting it somehow, and maybe we are not tech savvy 
enough to know what it is, but if we care about our kids and we 
want them to stay alive and stay away from this stuff, then we 
are going to have to get in the fight on that. So information 
is powerful, and it is just one of the many things that we--I 
think personally I got out of today is just more of an 
awareness of that, and my lack of information on it. So I have 
to do a better job myself with that.
    In any case, in the interest of time, the Chair thanks the 
witnesses for their valuable testimony and the Members for 
their questions. Members may have some additional questions for 
the witnesses, and we will ask that witnesses respond to those 
in writing, if you should get any questions from us that we 
lacked--failed to get to you today.
    Pursuant to Committee Rule VII(D), the hearing record will 
remain open for 10 days, and without objection, this committee 
stands adjourned.
    [Whereupon, at 1:55 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
